<html>
<title> - THE FUTURE OF COUNTER- TERRORISM STRATEGY</title>
<body><pre>[Senate Hearing 114-684]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-684

               THE FUTURE OF COUNTER TERRORISM STRATEGY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION
                               __________

                            December 1, 2016

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
       
 
                    Available via the World Wide Web:                 
                        http://www.fdsys.gov
                    
                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-727 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdbccd3fcdfc9cfc8d4d9d0cc92dfd3d192">[email&#160;protected]</a>                   
                    
                    
                    
                    


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  

                          C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     2
Zarate, Hon. Juan C., chairman and co-founder, the Financial 
  Integrity Network, Washington, DC..............................     4
    Prepared statement...........................................     7
Benjamin, Hon. Daniel, the Norman E. McCulloch Jr. Director, of 
  the John Sloan Dickey Center for International Understanding, 
  Dartmouth University, Hanover, NH..............................    18
    Prepared statement...........................................    21


                             (iii)        

 
                         THE FUTURE OF COUNTER-
                           TERRORISM STRATEGY

                              ----------                              


                       THURSDAY, DECEMBER 1, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:32 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Gardner, Perdue, Paul, Cardin, Menendez, Shaheen, 
Coons, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    I want to thank our witnesses for being here. It is great 
to be back with all of you. We had a little time off here.
    I want to thank our witnesses for testifying today. Both of 
you have had long careers working to defend our country against 
terrorists, and today is a great opportunity for us to learn 
from your experiences and hear your insights about the future.
    As the Mosul operation continues and the Raqqa campaign 
begins, ISIS could soon lose the most important territory it 
has held. As ISIS changes from an organization intent on 
retaining territory to one focused more on inspiring and 
directing violence and spreading radical ideology, the next 
administration is going to face new and perhaps even more and 
more diverse sets of problems.
    We have seen ISIS and other groups employ multiple 
different tactics, from organized external networks directing 
coordinated attacks in Europe to huge suicide bombings in the 
Arab world, to inspired attacks by lone wolves in the United 
States, like those that are current in my hometown of 
Chattanooga, Orlando, San Bernardino, and this week at Ohio 
State University.
    I hope you can help us think about the evolving nature of 
terrorist organizations and what tools the United States needs 
most to counter them. ISIS and al Qaeda have proved to be 
resilient in the face of extreme pressures, reinventing 
themselves and taking advantage of conflicts around the globe 
to root into local populations.
    With the world now focused on ISIS in Iraq and Syria, what 
can we do to best prepare for the next iteration of ISIS or al 
Qaeda? How can we recognize when a radical ideology is taking 
root and determine ways to best combat it?
    And finally, both of you have served in different 
administrations that created new structures and positions to 
combat terrorism. I think we could appreciate your views on 
what could be done going forward to better coordinate the 
whole-of-government approach to combatting terrorism.
    Again, I want to thank you both for being here, and I want 
to turn to our distinguished ranking member, my friend Ben 
Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, first, it is good to be 
back with hearings. It has been an interesting recess that we 
have had, and we are certainly looking forward to this hearing 
and the work of this committee.
    This is a very important hearing, so I thank you for 
scheduling it. It is very timely as we deal with an incoming 
new administration and the incredibly important subject of 
countering terrorism.
    You have made many points that I totally agree with. We 
need to build on the success that we have seen in combatting 
ISIL. Ramadi has been liberated. Mosul is in the process of 
being liberated. Raqqa is just a matter of time before the 
headquarters of ISIL in Syria falls. ISIL itself has said its 
days of the caliphate are limited, and I think that reflects 
the point that you raised, that there is more to this than just 
territory, and we have to be prepared for the continued 
vulnerabilities of particularly open and free democratic 
societies.
    What has been particularly encouraging in the region is 
that we have seen, as these areas are being reclaimed, that it 
is local security forces that are maintaining the security, 
which is absolutely essential, and there is recognition by 
those governing that they need to represent all the people. 
That is a continuing process, and that is very much part of the 
overall strategy to counter terrorism.
    But as you pointed out, terrorist groups are rather 
flexible, and they figure out different ways to cause mischief. 
They use their ideology to recruit, and we see also self-taught 
terrorists. When ISIL has been uprooted in Iraq and Syria, it 
will still seek to spread its barbaric ideology everywhere it 
can and inspire the desperate, the deluded, the delusional to 
strike out at the innocents in their country.
    Military action is very important, especially our Special 
Forces, which can and have been extremely effective in dealing 
with plans and generating intelligence that is very important 
to our game plan. However, it is only one tool that must be 
used. Defense through domestic police and investigative forces 
is also paramount, in cooperation with each other and their 
counterparts in other countries, especially within Europe, 
which has been the target of so many of the ISIL and al Qaeda 
attacks. As we learned so painfully, bureaucratic barriers to 
the exchange and analysis of information about potential 
terrorists and their plans must be torn down.
    We need to work together. We need to work with all of the 
tools that are available in all of the countries that are in 
our coalition to fight terrorism, and we must figure out more 
effective ways to accomplish that. We must give at least equal 
attention and resources to countering the social media appeal, 
the ideology, the lies, and all the different contributing 
conditions that provide fertile ground for groups like ISIL to 
grow and flourish.
    Mr. Chairman, we have spent trillions of dollars in our 
fight against terrorists. Most of it, over 90 percent, goes to 
the Department of Defense, as is needed. I do not disagree with 
our support of our men and women who are defending our country. 
We need resources in diplomacy and development assistance, the 
so-called ``soft powers'' of building democratic institutions, 
and I think it is our committee's responsibility to be there in 
order to understand that. So I very much appreciate this 
hearing.
    We must not only pursue a whole-of-government approach to 
counter terrorism but a whole-of-government perspective as 
well. We cannot do this alone. We need our coalition partners.
    I want to mention one last point where I think we have to 
be very careful in our language and in our actions. Quite 
frankly, anti-Muslim promises and songs about instituting a 
Muslim ban on immigration, profiling, and increased violence on 
Muslims threaten to isolate the United States. To me, that is 
counter to the strategies we need to fight extremists. 
Identifying Islam itself as a terrorist source, thinking 
somehow that directly attacking the religion of over 1.6 
billion people will make them more willing to help us is just 
fallacy. We need to recognize that there is a global effort to 
stop extremists, and what we say and what we do has a major 
impact on that.
    So, Mr. Chairman, I look forward to hearing from our 
witnesses. I would like to just conclude by pointing out that 
we have self-grown terrorists here. We have to deal with those 
issues. Significant attacks have been carried out here by 
persons motivated by racism, by homophobia, by radical 
political objectives, and that needs also to be part of our 
equation.
    So I look forward to this hearing. I look forward to 
working with all the members of this committee to make America 
safe.
    The Chairman. Thank you, sir. I appreciate that. I 
appreciate those comments.
    I might take a personal privilege here for just one moment 
to welcome Tim Kaine back. It is good to have you back here. I 
know you have had quite an adventure, and I look forward to 
hearing about it.
    Senator Kaine. What I did on my summer vacation. 
[Laughter.]
    The Chairman. I understand you have quite a star that you 
have added to the committee and that this may be their first 
hearing. Is that correct?
    Senator Cardin. If I might, Jessica Lewis is the staff 
director for the Democrats on the Senate Foreign Relations 
Committee. She comes to this committee with a great deal of 
experience, having worked with Senator Menendez, having worked 
with Linda Reed on intelligence issues, and has a vast 
knowledge of the Senate Foreign Relations portfolio. So it is 
wonderful to have her working as part of our team.
    The Chairman. We have had a lot of interaction with her 
because of the role she played, and we certainly look forward 
to working with her here on the committee.
    With that, welcome.
    To our witnesses, our first witness today is the Honorable 
Juan Zarate, chairman and co-founder of the Financial Integrity 
Network. Previously Mr. Zarate served as the Deputy Assistant 
to the President and Deputy National Security Advisor for 
Combatting Terrorism from 2005 to 2009. He also served as the 
First Assistant Secretary of the Treasury for Terrorist 
Financing and Financial Crimes.
    Our second witness today is the Honorable Daniel Benjamin 
from the Dickey Center for International Understanding at 
Dartmouth University. Among other roles, Mr. Benjamin 
previously served as Ambassador-at-Large and Coordinator for 
Terrorism at the State Department and as Special Assistant and 
Director for Transnational Threats for President Bill Clinton.
    We thank you all for being here. You all have been before 
this committee or have been a part of it, I am sure, many 
times. If you could keep your comments to around 5 minutes, we 
would appreciate it. Your written testimony, without objection, 
will be entered into the record. We thank you for being here.
    If you would start in the order of introduction, we would 
appreciate it. Just to let Senator Cardin know in advance, I am 
going to defer to you on questioning first and interject along 
the way.
    So, Mr. Zarate?

  STATEMENT OF THE HONORABLE JUAN C. ZARATE, CHAIRMAN AND CO-
    FOUNDER, THE FINANCIAL INTEGRITY NETWORK, WASHINGTON, DC

    Mr. Zarate. Chairman Corker, thank you for the kind 
introduction. Ranking Member Cardin, it is wonderful to see you 
again. Distinguished members of this great Committee on Foreign 
Relations, thank you again for the invitation and the honor to 
be with you today, especially today to talk about our counter-
terrorism strategy.
    Let me say welcome to Senator Kaine, my home senator as 
well. It is good to see you again, sir.
    I also want to say I am honored to be here with Ambassador 
Dan Benjamin, somebody who served our country with great 
distinction in a number of roles over the years, and I have 
been honored to watch his work and have been privileged to 
become his friend, I hope.
    But this is an important moment, Mr. Chairman, to have this 
hearing. Fifteen years after 9/11, we face a more diverse and 
complicated global terrorism threat. We have continued in 
quickening adaptations from groups like ISIS and still al 
Qaeda, and with a new administration set to take over, it is a 
critical moment to take stock of where we have been, some 
lessons learned, and to start to shape a counter-terrorism 
strategy to defeat the persistent threat of violent Islamic 
extremism.
    Mr. Chairman, you have asked us to address a number of 
issues, including the nature of the metastasizing threat and 
what lessons have been learned from the rise of ISIS, and 
perhaps its demise.
    There is no doubt terrorist groups continue to learn from 
each other, Mr. Chairman, with demonstration effects of 
attacks, methodologies, and messaging echoing instantaneously 
around the world. These groups and their adherents adapt 
quickly to pressure and opportunity, leveraging elements of 
globalization and modern communication while exploiting seams 
in security, along with weaknesses in governance to their full 
advantage.
    The rise and reach of ISIS has driven much of this 
adaptation, and we have witnessed this over the past few years. 
Likewise, al Qaeda affiliates have continued to perpetrate 
terrorist attacks from West Africa to Yemen, and now al Qaeda 
is smartly rebranding itself in key conflicts and war zones, 
including in Syria.
    But there has been significant pressure on ISIS, which is 
good news. There has been important and increased pressure on 
its safe havens physically in Iraq and in Syria, targeting of 
the organization's key leadership, especially taking off the 
battlefield operational core leaders focused on external 
planning.
    The Treasury Department, the military, the intelligence 
community have increased the pressure on the ISIS war chest. In 
fact, ISIS' budget is significantly constricted. They have had 
to cut their foreign fighter salaries by 50 percent and 
suspended what are important death benefits to families of ISIS 
fighters killed in combat.
    And importantly, in demonstrating the loss of ISIS' 
physical space, losing its so-called ``caliphate,'' we have 
begun to shatter the myth of ISIS victory and the allure of the 
caliphate that has really been the siren song for ISIS and its 
global movement.
    So the effect of this pressure is good news, but it is 
certainly not the end of the story. Mr. Chairman, as you have 
set out, we need to worry about what the next chapter looks 
like and what comes next.
    With adaptations on the horizon, ISIS will certainly remain 
a player in the context of the Syrian civil war, especially as 
it continues and to the extent that they can hold some 
territory. If ISIS is driven out of major cities, as we hope 
they will be, it could continue to strike using classic 
terrorist tactics. If it contains and maintains its provinces 
and platforms, there will be an opportunity to use those 
platforms, from West Africa to Southeast Asia, to support and 
reinforce a new network even if they do not have a functioning 
capital or control of vast swaths of territory.
    And even though many of the ISIS foreign fighters will die, 
no doubt, in defense of territory in Iraq and Syria, there is a 
very long and real tail to the foreign fighters and cells 
returned to the West, Asia, Africa, and Australia. ISIS can 
also survive through the influence of a digital diaspora. ISIS 
has already proven its ability to innovate the use of targeted 
messaging and social media for recruitment and inspiration. And 
there has also been, unfortunately, a powerful digital 
afterlife for many of the radical ideologues and operatives for 
ISIS and al Qaeda.
    Importantly, al Qaeda has taken advantage of the attention 
ISIS has drawn to reinvigorate its networks, including having 
training camps in al Qaeda that have come to the U.S. 
Government's attention in recent months. The danger in the 
environment, Mr. Chairman, is something this committee knows 
well, the growing proxy battles in the region between Sunni and 
Shia forces. The danger here is that the proxy battles will no 
doubt grow worse and these groups will be seen as a response 
and a defense against Iranian and Shia-backed militias and 
terrorist groups.
    Now, the demonstration effect from ISIS has been real, and, 
Mr. Chairman, it is dangerous. They have developed terrorist 
methodologies that have been improved over time. They have been 
allowed time and space to do so. They have experimented with 
drones, used chemical weapons, developed tunnel systems, 
classic things that an insurgency and a terrorist group does.
    They have also directed different types of attacks. They 
have obviously directed sophisticated attacks of the types we 
have seen in Paris and Brussels. They have also begun to frame 
attacks, entrepreneurial attacks for followers and those who 
are adherents. And finally, as we have seen in recent months, 
they have amplified their attempts to inspire attacks-in-place 
for fellow citizens to attack in the countries in which they 
live with the simplest means possible, including running over 
pedestrians.
    ISIS has innovated in terms of its use of media and 
recruitment, using targeted social media to isolate and 
radicalize. It has perfected the use of multiple media forms, 
consistency and quality across all of its products. And though 
not successful, the organization has developed governing 
structures, schools, and even court systems that have allowed 
it to experiment with controlling populations, imposing its 
rule, and embedding itself ideologically with young 
generations.
    There is also a cautionary tale, Mr. Chairman. The problems 
that ISIS has encountered will be a cautionary tale to other 
groups. Other groups will note the disillusionment of those who 
joined ISIS and tried to flee, the inability to keep 
populations satisfied or at bay, and the ultimate inability to 
consolidate its control of territory and rule.
    Finally, Mr. Chairman, you asked us to reflect on key ideas 
or focus of our U.S. counter-terrorism strategy, and I know I 
am over my time. Let me be really succinct here in terms of 
some key principles and elements of a strategy.
    First, Mr. Chairman, we have to realize that the underlying 
ideology and appeal of these violent extremist organizations 
animates these terrorist movements. This is not just a threat 
about one particular group or one manifestation. This is an 
ideology that has manifested in a variety of ways and that will 
continue to drive the threats from this violent extremist 
movement.
    I was recently part of a study at CSIS led by former 
Secretary of Defense Leon Panetta and former U.K. Prime 
Minister Tony Blair that set out a new comprehensive strategy 
for countering violent extremism. I have included some elements 
of that report in my testimony. I would ask people to look at 
that because it lays out a new approach, new resources, and new 
methodologies to deal with the underlying ideology.
    Second, Mr. Chairman, the laws of physics apply to counter-
terrorism. You cannot forget that. We have to physically 
disrupt the ability of these groups to organize, control 
territory, to lead, and to plot. I think we have lost sight of 
that at times, thinking that we can push magic buttons in New 
York and Washington and have the problem go away. The reality 
is you have to dislodge these groups from their hold on 
territory, and that has been especially the case with ISIS.
    Mr. Chairman, effective and trusted partnerships are 
essential. We cannot do this alone, obviously, and what Dan did 
at the State Department, what we did prior in the Bush 
administration to create regional alliances to deal with the 
emergence of these groups in places like East Africa, Southeast 
Asia, becomes essential moving forward. We cannot be in all 
places at all times dealing with the emergence of these groups.
    Mr. Chairman, this is also important for this committee: 
Our counter-terrorism strategies cannot be divorced from a 
coherent national security and foreign policy. It is often the 
case that administrations say we do not want counter-terrorism 
to be the sole driver of our foreign policy, but the reality is 
it suddenly becomes the priority, especially when dealing with 
conflict zones or crises and direct and imminent threats to the 
homeland. But the reality is these are complicated 
environments--Syria, Yemen, other conflicts where these 
terrorist threats emerge--and we have to have comprehensive and 
coherent foreign policies to address the underlying issues.
    And finally, I want to echo something that Senator Cardin 
said. I think words and lexicon matter quite a bit. How we 
define the enemy matters in terms of our strategic approach. 
How we talk about our allies and our approach matters to 
creating a sense of unity with our coalition. Our language 
should reinforce our alliances, strengthen our messages and 
ideals, and certainly undercut the appeal of our enemy's vision 
of the world.
    Mr. Chairman, I know I have taken a lot of time here, but I 
think certainly with the right strategy, focused resources, 
institutions we have put in place, we can handle this problem, 
but we have to be focused and be imaginative in terms of where 
the manifestations of this movement will emerge, and we cannot 
be afraid to imagine the worst because we have to get ahead of 
the curve, because these are actors that are innovative, smart, 
and constantly using time, space, and resources to their 
advantage.
    [The prepared statement of Hon. Juan Zarate follows:]

               Prepared statement of Hon. Juan C. Azrate

                the future of counter-terrorism strategy
    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the Senate Committee on Foreign Relations, I am honored to be with 
you today to discuss the future of counter-terrorism strategy.
    This is an important moment to reflect on the state of the so-
called Islamic State of Iraq and alSham (ISIS) and the lessons 
terrorist organizations have learned from it. More than fifteen years 
after 9/11, we face a more diverse and complicated global terrorism 
threat, with continued and quickening adaptations from groups like ISIS 
and al Qaida. With a new administration and Congress a few weeks away, 
this is also a critical moment to reflect on our own lessons learned 
and how the United States should shape its counter-terrorism strategy 
to defeat the persistent threat of violent Islamic extremism.
Introduction
    The nature of the global terrorist threat today is more 
geographically dispersed, adaptive, and strategically relevant than 
ever before. Terrorist attacks appear to be quickening and intensifying 
around the globe, and the perception of a worldwide metastasizing 
threat is increasing.
    Terrorist groups continue to learn from each other--with 
demonstration effects of attacks, methodologies, and messaging echoing 
instantaneously around the world. These groups and their adherents 
adapt quickly to pressure and opportunity, leveraging elements of 
globalization and modern communication while exploiting seams in 
security along with weaknesses in governance to their full advantage.
    These groups also take advantage of and exacerbate dislocation, 
conflict, and sectarianism to fuel their agendas, fill their coffers, 
and gain footholds and adherents. In the context of broader 
dislocations and national anxieties, terrorist attacks and messaging 
take on more strategic relevance. Even a series of smaller-scale 
attacks could have broad social effects and political impact that 
affect the trajectory of nations and societies.
    The rise and reach of ISIS has driven much of the adaptation we 
have witnessed in the global terrorist landscape over the past few 
years. The emergence of ISIS outpaced expectations and surprised most 
authorities and terrorism analysts. With the announcement of the 
caliphate in Iraq and Syria and the taking of Mosul and other major 
cities, ISIS sought to redraw the map of the Middle East, threaten the 
West, establish provinces (``wilayats'') and terrorist alliances, and 
inspire attacks well beyond the Middle East. ISIS has perpetrated 
serious attacks in Europe, Beirut, Istanbul, Egypt, Bangladesh, and the 
Gulf countries, and its affiliates and aspirant supporters have 
attacked far afield in Nigeria, Afghanistan, Indonesia, San Bernardino, 
and Orlando.
    Likewise, al Qaida affiliates have continued to perpetrate 
terrorist attacks from West Africa to Yemen, with members perpetrating 
the 2015 Charlie Hebdo attack in Paris. Al Qaida is now smartly 
rebranding itself in key conflicts and war zones, such as in Syria, 
Yemen, and Libya, and attempting to reemerge again as part of the 
legitimate local landscape.
    Though ISIS and al Qaida have been in strategic competition and in 
direct conflict in certain arenas like Syria, they form part of a 
broader violent Islamic extremist movement that can find common cause, 
leverage each others' networks, and reflag quickly to adapt to 
opportunities in the environment. We have seen this in the shift in 
allegiances declared from al Qaida to ISIS by Boko Haram in West 
Africa, the Islamic Movement of Uzbekistan in Central Asia, and Taleban 
and al Qaida members in Afghanistan. Though competition still exists, 
cooperation could accelerate in certain contexts, especially in the 
face of increasing Shia and Iranian pressure and proxy battles.
    All the while, these violent Islamic extremist organizations have 
occupied territory--creating a terrorist archipelago encompassing not 
just the deserts, jungles, and mountains of past safe havens but urban 
and resource-rich environments. This has allowed both ISIS and al Qaida 
to exploit civilian populations and to develop local and regional war 
economies. It has allowed ISIS in particular to leverage the 
establishment of the caliphate as its demonstration that it can govern 
an Islamic state and to animate the global terrorist movement in 
support of its cause. This has revived and connected pre-existing 
jihadi networks from Southeast Asia to the streets of Europe.
    Dangerously, failing to understand and anticipate ISIS' intent and 
capabilities--and the shifting terrorist landscape--has led to some 
misguided assumptions that have now been shattered in the wake of a 
series of serious attacks, particularly following the Paris and 
Brussels attacks. As part of its broader strategy of establishing the 
caliphate, ISIS is purposefully confronting the West. While creating 
its caliphate and expanding its provinces to places like Libya and 
Yemen, ISIS has been planning to strike the West, using Western 
operatives flowing into the conflict zone by the thousands, and is 
openly attempting to inspire singular attacks by sympathetic radicals 
in Western societies. It has built these capabilities over time and 
taken advantage of intelligence and security gaps to implant operatives 
in Europe. This is a strategy not triggered by provocation or weakness, 
but rather is a deliberate part of ISIS' planning.
    European authorities have come to grips with the realization that 
ISIS is targeting the heart of Europe with dozens of operatives. 
Ongoing raids, arrests, and disruption of plots continue throughout the 
continent.
    This should not have come as a surprise to those watching ISIS 
erase the border between Iraq and Syria, occupy major cities in the 
Middle East, and take advantage of the safe haven it has established 
and of the foreign fighters flowing in and out of the region.
    Indeed, with the thousands of foreign fighters traveling to 
terrorist-controlled territory and others animated by the allure and 
narrative of a historic and heroic caliphate battling infidel forces, 
ISIS and al Qaida can more easily mobilize attacks against the West. 
France and Belgium have been particularly vulnerable given the role and 
importance of Francophone terrorist networks embedded in pockets of 
radicalization like Molenbeek in Brussels. But they are not alone. The 
rest of Europe is vulnerable, and the United States is at risk for acts 
of terror resembling what occurred in San Bernardino, Orlando, or from 
more organized attacks by foreign fighters or sympathizers.
    The United States does not face the same kind of threats from ISIS 
and al Qaida that Europe does, but the threat remains real--for U.S. 
citizens and interests abroad and for the Homeland.
    Recent terrorist attacks inspired by ISIS and violent Islamic 
extremism in Orlando; San Bernardino; Garland, Texas; Brooklyn; 
Chattanooga; and Philadelphia reflect an environment in which 
radicalized or deranged individuals are willing to attack fellow 
citizens on behalf of a foreign terrorist organization or its brand. 
The case this past week of the Somali refugee who attacked fellow 
students at Ohio State University by running them over and stabbing 
them may be another example of this kind of threat. Terrorism-related 
prosecutions brought by the U.S. Department of Justice over the past 
few years demonstrate a fairly consistent, yet small number of cases of 
radicalized individuals willing to support ISIS and al Qaida as well as 
plan attacks.
    There have been small pockets of radicalization that have emerged, 
for example in the SomaliAmerican community which has seen young 
members of its community travel to Somalia to fight with al Shabaab and 
more recently to fight in Iraq and Syria. ISIS and al Qaida have 
continued to target Americans--including young women - specifically for 
recruitment, including by using targeted social media and peer-to-peer 
communications to identify, isolate, and mobilize operatives in the 
United States.
    The FBI Director has stated that there are open ``homegrown violent 
extremist investigations'' in all fifty states. The diversity and 
volume of cases fueled by the ideology of ISIS and al Qaida have 
challenged U.S. counter-terrorism capabilities to identify, monitor, 
and determine the seriousness and priority of each case.
    It is important that we examine and understand the threat soberly. 
ISIS, al Qaida, and likeminded groups are neither omnipotent nor 
comprised of ten-foot giants. They have not been able to mobilize large 
percentages of susceptible Muslims to violence, and the communities 
impacted by their brutality have largely rejected their message.
    But they have rallied thousands to their cause, perpetrated some of 
the worst brutalities of the 21st century, and caused major disruptions 
and dislocation in an Arc of Instability from Central Asia to West 
Africa. Their rapid and devious adaptations--in attack methodologies, 
messaging, recruitment, financing, and governance--are dangerous and 
cannot be ignored or discounted. ISIS' use of chemical weapons, 
establishment of a chemical weapons unit, and surveillance of Belgian 
nuclear infrastructure and personnel raise the specter of a group 
intent on using weapons of mass destruction.
    The blind spots in our intelligence have only heightened concerns 
of what we are not seeing or hearing regarding terrorist plans. And 
these groups remain intent and capable of striking the West in 
strategically impactful ways.
Effective Pressure on ISIS
    U.S. and coalition pressure on ISIS has been significant and 
important to diminishing its capabilities and affecting its strategic 
posture. ISIS is losing ground in Iraq, Libya, and Syria. The U.S., 
Iraqis, Kurds, and other allied forces have put greater pressure on 
ISIS physical havens and urban strongholds throughout the Middle East. 
Turkish-backed forces recently took back the symbolic city of Dabiq, 
the battle for Mosul is well underway, and Libyan forces are cleaning 
up remnants of ISIS in Sirte.
    Iraqi forces, supported by the Kurds, the United States, and the 
broader coalition, will eventually retake Mosul. The question will be 
when, with how much bloodshed and cost, and whether Mosul and 
surrounding territory can be held and rebuilt. Dislodging ISIS from its 
physical footprints is the most urgent and important counter-terrorism 
measure for the international community. Mosul and Raqqa must be taken. 
From Raqqa, its so-called capital in Syria, ISIS has been able to plot, 
plan, communicate, adapt, raise funds, and operate openly and freely.
    The targeting of the organization's key leaders, especially the 
operational core, has proven important to affecting the ability of the 
group to adapt quickly to pressure. Since last year, there has been an 
increased pace in the targeted killing of key ISIS leadership, to 
include Omar al-Shishani, a top military commander in Syria; Abu 
Mohammed al-Adnani, ISIS's official spokesman, director of external 
relations, and senior leader; Wa'il Adil Hasan Salman al-Fayad, the 
minister of information; and Abd al-Basit al-Iraqi, emir of external 
networks and Western targeting.
    The constriction on ISIS funding has been critical as well. The 
Treasury Department, the military, and the intelligence community have 
increased the pressure on the ISIS war chest. ISIS has run a war 
economy with a diversified portfolio. Its ability to control 
significant territory, with populations to tax and resources to 
exploit, has allowed the organization to govern and expand its 
operations. Revenue from running oil operations in Iraq and Syria has 
been a major source of income for the group--taking advantage of the 
black market in oil and old Iraqi oil smuggling routes. It has 
developed mobile refineries and transport to transact with brokers, 
including even the Assad regime in Syria.
    The United States had to accelerate its understanding of how ISIS 
is doing business and moving money within its territory and beyond. 
U.S. authorities have squeezed certain key chokepoints for the ISIS 
economy where it touches the regional and global financial system--
including by isolating the financial institutions that sit in ISIS-
controlled territory and sanctioning key financiers and brokers. 
Ultimately though, we have had to recognize that a major enabling 
factor for financing is ISIS control of territory and resources--and 
therefore that the United States and its allies have to dislodge the 
group physically in order to fully cut off its financial lifeline. 
There is no magic button at Treasury to do this.
    This is why economic disruption is a key element of the war plan 
against ISIS. The U.S. and coalition airstrikes--including on cash 
distribution centers--and pressure on the ground have dislodged the 
Islamic State from some of its oil and gas supplies and infrastructure 
and put real pressure on its economy. The effects are real, and the 
ISIS budget appears to be constricting significantly. ISIS recently cut 
fighter salaries by 50% and suspended ``death benefits'' to families of 
ISIS fighters killed in combat.
    Importantly, demonstrating that ISIS is losing in the physical 
space--and losing its hold on the caliphate--will begin to shatter the 
myth of ISIS victory and the allure of the caliphate to the global 
movement. This is essential to stunting the expansion of the movement. 
The Siren Song for ISIS has been the call of a realized, functioning 
caliphate where true believers can unite to build and defend a ``truly 
Islamic society.'' The inability to hold and defend territory along 
with the organization's failure to govern successfully or to capture 
hearts and minds of the locals will pierce some of the romantic appeal 
of ISIS. Dejected and disaffected recruits have amplified 
disillusionment with the group. This, in combination with more intense 
enforcement efforts and greater difficulty traveling into ISIS-
controlled territory, has slowed the pace of foreign fighters 
significantly.
    The effect of this increased pressure is good news, but ISIS has 
had time and space to operate, spread its reach, and demonstrate its 
capabilities. ISIS and al Qaida--and the violent Islamic extremist 
movement they represent--will continue to take advantage of 
opportunities in the environment and adapt.
Adaptations on the Horizon
    Even if all of ISIS' footholds in the Middle East and North Africa 
are retaken, ISIS will remain a threat and will adapt. ISIS will 
certainly remain a player in the Syrian context as long as that civil 
war continues and as long as it is able to hold territory or galvanize 
opposition to the Assad regime.
    Though ISIS has attempted to create a proto-state, it remains a 
hierarchical terrorist organization. If ISIS is driven out of the major 
cities, it could continue to strike using classic terrorist tactics 
like vehicle-born improvised explosive devices against population 
centers in the Middle East. Some ``retreating'' ISIS leadership and 
personnel can blend back into the population and refugee flows, deploy 
to neighboring countries, or lie in wait with sympathetic Iraqi or 
Syrian allies. Here the experience of the conversion of a depleted al 
Qaida in Iraq into what eventually became ISIS is instructive. Remnants 
of ISIS could take advantage of weak security, worsening sectarian 
tension, and episodes of political crisis to reassert or rebrand 
itself.
    ISIS has also established footholds well beyond Iraq and Syria. 
ISIS has various wilayats (or proclaimed provinces) in North Africa, 
Central Asia, and the Arabian Gulf that allow the ISIS brand to project 
power and threaten U.S. and allied interests. The recent uptick of 
ISIS-claimed attacks in Pakistan has demonstrated this reach. In 
addition, the ability of ISIS to embed in terrorist insurgencies like 
Boko Haram in West Africa and into enduring conflicts as in Libya and 
Yemen provides the network a platform to operate and regenerate. ISIS 
could certainly contemplate moving its command and control--or elements 
of its foreign operations--outside of danger zones into safe havens. If 
such provinces or platforms exist, there will be the opportunity for 
those platforms to support and reinforce each other--creating a network 
for ISIS to operate and support adherents even if it lacks a 
functioning ``capital.''
    Unfortunately, ISIS has had time and space to recruit, deploy, and 
inspire foreign fighters and those attracted to its message. Even 
though many of the remaining ISIS foreign fighters will die in defense 
of territory in Iraq and Syria, there is a tail to the foreign fighters 
and cells returned to the West, Asia, and Africa. The foreign fighter 
diaspora is a real threat. ISIS has had over 5,000 Western foreign 
fighters, as well as upwards of 40,000 total foreign fighters, from 
which to choose to leverage for different purposes, including returning 
to Europe to perpetrate attacks.
    ISIS organized an external operational unit, and has marked 
operatives for attacks in Europe, many of which have been thwarted. 
Francophone cells--comprised of French, Belgian, and dual nationals--
have proven a lethal network for ISIS attack plotting in Europe. Some 
of these Western operatives have been trained to evade scrutiny, engage 
in operational security--including the use of encryption technologies--
and execute strategic attacks in concert. The sheer volume of potential 
operatives, along with unknown actors, has overwhelmed even the best 
European services.
    ISIS can also survive and influence through a digital diaspora. 
ISIS has already turned explicitly to trying to inspire any and all 
attacks in place--and has grown more willing to claim less 
sophisticated and seemingly less coordinated attacks in the United 
States, including the attack this week on the campus of Ohio State 
University. It has innovated the use of targeted messaging and social 
media for recruitment and inspiration.
    There has also been a powerful digital afterlife for certain 
radical ideologues and operatives, whose effect and ability to 
radicalize or inspire has far outlived their natural life. The 
persistent appearance of Anwar al Awlaqi, the Yemeni-American cleric, 
in the files and motivations of radicalized individuals in the West, 
including the United States, is a troubling factor. In general, ISIS 
and its supporters could attempt to move functionally from a physical 
caliphate into a virtual environment. Authorities worry about what such 
adaptations may entail.
    Importantly, al Qaida has taken advantage of the attention ISIS has 
drawn to reinvigorate its networks, appearing dangerously again in 
places like Afghanistan training operatives. In many cases, al Qaida 
has regenerated, embedding itself from the ground up with local 
populations--often renaming itself to gain legitimacy and to emphasize 
its local bona fides. We have seen this in places like Syria where 
Jabhat-al Nusrah has distanced itself from al Qaida and been renamed 
Jahbat Fatah al-Sham. At the start of the Arab Spring, I noted that al 
Qaida and associated movements would try to take full advantage of the 
dislocations and likely disillusionment with the Arab Spring. The 
battle for ``reform'' and control is still at play.
    A danger in this environment is that the growing proxy battles 
between Iranian backed terrorist groups and militias on the one hand 
and Sunni groups, populations, and regimes on the other will animate 
greater support or at least tolerance for ISIS and al Qaida remnants--
and any likeminded allies--in order to beat back the perceived 
aggression of Shia forces. This has been a problem in conflict zones 
like Syria where al Qaida affiliates have proven at times to be the 
most effective fighting forces against the Assad regime and its Iranian 
and Hizballah backers. Sectarian tendencies have exacerbated mistrust, 
as with the Iraqi government's recent decision to incorporate Shia 
militias into the military over the objection of Sunni lawmakers.
    This proxy battle is likely to grow worse. The West seemingly 
underestimated how far Iran would go to prevent the fall of the Assad 
regime, the Iranian regime's sole Arab ally in the Middle East. Since 
the Syrian revolt began in 2011, Supreme Leader Ayatollah Khamenei--who 
controls Iran's foreign policy--has implemented a full-throttled 
strategy executed by the Islamic Revolutionary Guard Corps (IRGC) to 
prevent Assad's fall and preserve an Iranian-allied Alawite-led enclave 
stretching from Damascus up to the Lebanese border and the 
Mediterranean Sea. In order to offset the bled-out Syrian army, the 
IRGC has mobilized an international Shiite expeditionary force 
comprised of fighters from Afghanistan, Syria, Pakistan, Iraq, Lebanon, 
and even as far as West Africa.
    In mid-2015, when pro-Assad forces were overstretched and Assad was 
in danger of falling, Iran coordinated with Russia to escalate 
militarily and save their embattled ally--thus inviting Russia back to 
the Middle East after nearly four decades and positioning it near 
NATO's southern flank. Iranian and Russian investment appears to have 
paid off. They have virtually eliminated the option of Assad's 
overthrow by military means and are on the cusp of achieving a major 
victory in capturing Aleppo, Syria's largest city prior to the war. 
Despite costs, Syria has given the IRGC the opportunities to hone its 
international expeditionary model, what Guard commanders call the 
nucleus of a ``global Basij,'' and gain a long-term foothold in Syria 
and by Israel's doorstep.
The ISIS Demonstration Effect
    Other groups have learned from the ISIS experience and its 
innovation, especially as ISIS propaganda, videos, and messaging are 
tweeted and streamed globally and reported and repeated by legitimate 
media sources.
    The United States is concerned about the demonstration effects of 
successful or attempted terrorist attacks, especially in the West. 
Radicalized individuals in the United States could always be inspired 
to attack--to feed off of the attention and momentum of attacks in 
Europe or to engage in copycat attacks. In a globalized, instantaneous, 
and fluid information environment, would-be terrorists can learn 
quickly from those who have executed successful attacks and may 
understand or study the security protocols employed to attempt to 
thwart such attacks. The more terrorist attacks are successful, the 
more concern there will be that radicalized individuals in the United 
States will be mobilized to attack.
    The ISIS demonstration effect is dangerous.

    Terrorist Methodologies. ISIS has certainly improved certain 
terrorist and insurgent methodologies, using tunnel systems in 
territory it holds; sequential urban terrorist attacks (reminiscent of 
the Mumbai attacks); experimenting with drones; and deploying chemical 
weapons. The organization has had time and space to adapt its tactics, 
and others in the jihadi environment have watched and learned.
    ISIS has decided to use three forms of attacks that make overseas 
counter-terrorism efforts even more difficult to manage. ISIS 
leadership has planned and orchestrated attacks, with growing 
sophistication and reliance on an operational lead (``directed 
attacks''). In a recent attack in Germany, the terrorist was 
communicating with a handler directing the operative from Syria during 
the attack. ISIS leadership is also framing the broad parameters and 
timing of plots and enlisting operatives to launch attacks 
entrepreneurially (``framed attacks''). Finally, ISIS--like al Qaida--
is trying to animate radicalized individuals to kill fellow citizens in 
any way possible where they live (``inspired to attack in place''). 
ISIS--like al Qaida--has urged followers to use simple means, like 
vehicular attacks to run over pedestrians. These three forms of 
terrorist plotting create a tapestry of complicated threats for Western 
authorities.
    Importantly, there could also be adaptations in the use of social 
media and communications technologies not just to radicalize and 
animate individuals but also to mobilize and direct them to act in 
concert for strategic purposes. A key influencer--in the United States 
or from abroad--could use peer-to-peer technologies to choreograph 
disparate, radicalized individuals to attack in the Homeland. Such 
methodologies might allow terrorists to turn lone wolves into a 
coordinated pack attacking the West.
    ISIS has also focused on recruiting and using women--as operatives, 
supporters, and cornerstones of the caliphate. Many women have been 
drawn to the idea of the caliphate, seeking both adventure as well as 
family. Women have been used to lure foreign fighters, to evade 
security services and scrutiny, and to create the sense of stability 
and family structures in the caliphate. ISIS has also enslaved, 
entrapped, and committed atrocities against women, which the 
organization attempts to justify through twisted theological 
interpretations. Women will grow as a part of the terrorist landscape, 
especially as groups like al Qaida attempt to embed themselves more 
neatly with local populations.

    Terrorist Media. ISIS has changed the nature of the media and 
recruitment in the terrorist landscape. ISIS messaging has echoed in 
sophisticated ways via recruiters, the Internet, and targeted social 
media. The ISIS mythology, amplified by the establishment of the 
caliphate, piggybacks off the al Qaida narrative and has drawn 
adherents and converts from around the world.
    On June 29, 2014, al-Adnani (now deceased) declared the creation of 
the caliphate after ISIS' June offensive in Iraq and the capture of 
Mosul. In July 2014, Abu Bakr al-Baghdadi, the selfproclaimed 
``caliph,'' called on Muslims around the world to ``rush'' to the 
Islamic State. On September 21, 2014, al-Adnani encouraged followers to 
carry out lone wolf attacks, especially if they cannot travel to the 
Islamic State.
    ISIS has standardized high-quality videos and productions--from 
short form to longer documentary reports--across its affiliates. Many 
of its videos have been brutally graphic, intended to stoke fear, cow 
opponents, and excite followers. Even so, most of their videos have 
been focused on ISIS's ability to govern and the nature of the 
caliphate. The organization publishes high quality magazines, Dabiq and 
now Rumiyah, intended to capture Western and other audiences with the 
idea of the caliphate.
    The ISIS ``fan boys'' have used thousands of Twitter accounts to 
echo such messages and send videos around the world. ISIS has also 
created a system of using social media for targeted recruitment and 
social isolation of radicalized individuals. These messages have 
resonated with specific individuals who have been willing to mobilize 
on behalf of ISIS. This new media and recruitment model will be 
replicated by other terrorist groups.

    Allure of Ideology & Reality of Governance. In its media campaign, 
ISIS has also demonstrated that the ideology and narrative of the 
caliphate holds purchase with some individuals and can be alluring to a 
global audience. Data from ISIS recruitment records analyzed by the 
Combating Terrorism Center at West Point demonstrates the diversity of 
the foreign fighter recruits, including through their nationalities, 
education levels, and backgrounds. ISIS also demonstrated that the 
caliphate can be a physical reality imagined today, as opposed to 
waiting for a mystical future, and that individuals have agency in its 
creation.
    With its cruel designs, ISIS was able to alter the map, erasing the 
border between Iraq and Syria, displacing unwanted populations, and 
exacerbating the weak seams in the countries in which it operates. By 
destroying and desecrating historical and sacred sites, it demonstrated 
how to erase evidence of a history that does not comport with its 
version of reality--while also profiting from the sale of antiquities.
    ISIS has also attempted to organize and govern in replacing 
authority. It has often filled governance gaps, taking full advantage 
of embedded grievances and mistrust, often stoked by sectarian tension, 
injustice, and corruption. Though not successful, the organization 
developed governing structures, schools, and courts that allowed it to 
experiment with controlling populations, imposing its rule, and 
embedding itself ideologically with other generations.
    ISIS has operated war economies that allowed it to run all aspects 
of the oil sector, food distribution, and exploit local businesses, 
banks, and money service businesses. ISIS leaders also administered tax 
and extortion systems in major cities and learned how to use the local 
economy and infrastructure as an economic shield. Even if ISIS physical 
footholds were to be taken back tomorrow, it will have demonstrated to 
those drawn to this ideology that some form of the caliphate is a real 
possibility. It will also have demonstrated ways to manage governance 
and economies of major population centers.

    Cautionary Tale.  The problems that ISIS has encountered--and its 
eventual demise as a socalled caliphate--will serve as a cautionary 
tale to other groups. Other groups will note the disillusionment of 
those who joined ISIS, the inability to keep populations satisfied or 
at bay, and the failure of ISIS ultimately to consolidate its territory 
and rule. Indeed, al Qaida may begin to message again more clearly that 
the premature announcement of the caliphate--without proper grounding 
and support--was doomed to fail. Al Qaida might also be reminded that 
there are dangers with open and direct confrontation with the West, a 
lesson it learned the hard way after the aggressive U.S. response after 
the 9/11 attacks.
    The ISIS experiment has also demonstrated that it is very hard to 
govern large swaths of territory and vast populations for a long time. 
Good governance takes management of resources, attention to detail and 
mundane tasks, and the ability to compromise. Terrorist groups may not 
be constituted by the nature of their organizations to run governments 
on their own--but instead may want to embed in existing structures or 
political parties. This however dilutes the message and mission of a 
committed terrorist group. The ability to govern is made even more 
difficult if beliefs and order are being imposed harshly and alienate 
influential local leaders and large parts of a local population. 
Terrorist groups that hope to operate as insurgencies or proto-states 
will again take note that establishing harsh regimes without grassroots 
support is difficult to sustain.
    The harshness and exclusiveness of the ISIS agenda has also 
alienated potential allies, creating fissures in the global violent 
Islamic extremist movement. These fissures are not permanent, but they 
have pitted like-minded groups such as al Qaida and ISIS against each 
other. These are the kinds of fissures that need to be exploited to 
avoid the consolidation of terrorism movements across the Arc of 
Instability.
Key Principles and U.S. Counter-Terrorism Strategy
    There are certain reinforced lessons for the United States and her 
partners that are critical for the counter-terrorism mission. The 
United States should keep these squarely in mind as the new 
administration constructs the strategy and focus necessary to constrain 
the growth, reach, and impact of the violent Islamic extremist 
movement--and ultimately defeat it. This will be a generational 
challenge, and the U.S. government and its allies need to treat it as 
such.
            The Underlying Ideology Animates the Terrorist Movement
    The underlying ideology and appeal of these violent Islamic 
extremist organizations animates the terrorist movements--be it al 
Qaida, ISIS, or whatever manifestation emerges next. We cannot ignore 
that ideology is a driver for this broader global movement, and we must 
work to prevent the perpetuation and embedding of this ideology. This 
matters operationally. This ideology drives a violently exclusionary 
narrative that focuses on the United States and other ``far enemies'' 
as principal targets and has become a fundamental part of the jihadi 
DNA, regardless of local focus or origins of the group. More broadly, 
we run the risk of losing the broader ``battle of ideas'' against a 
violent extremist ideology that is infecting a whole new generation of 
Muslim youth and defining what it means to be Muslim in the 21st 
century.
    This is not just about one group or terrorist actor, and it's not a 
short-term problem. This is a long-term battle, and we have assets, 
allies, and ideas on our side. The vast majority of Muslims are not 
drawn to the ideology, and Muslim voices and activists are speaking 
against extremism. This is precisely why ISIS has targeted some of them 
openly and why voices of moderation have come under direct attack in 
places like Bangladesh.
    The world must confront directly the outbreaks and manifestations 
of this ideology--like it does a pandemic. This requires empowering a 
new type of coalition--a ``network of networks'' of non-state and state 
actors--that not only counters the extremists' narrative and seeks to 
intervene and replace it, but also gets ahead of it through 
inoculation.
    Mothers and victims of terrorists have organized chapters and 
spoken out against radicalizers. Former extremists have organized to 
counter recruitment and the ideology on the streets, on campuses, and 
online. Muslim youth, imams, and entrepreneurs have developed online 
platforms to organize against extremism.
    Attempts to amplify these and other credible voices and create new 
platforms for expression and a sense of modern identity not dictated by 
terrorists have worked on a small scale. All of these efforts must be 
scaled up dramatically. Networking, empowering, funding, and enlisting 
credible voices are critical, and this has to be done not just by 
governments but also by civil society, NGOs, and philanthropists.
    Governments need to provide consistent strategic focus, funding, 
and a willingness to let a thousand flowers bloom. This includes 
seeding investments in this space--like a ``CVE In-QTel''--to allow for 
investment in innovation to counter the messaging and manifestations of 
extremism. And then we need to scale those projects and networks that 
have proven successful with real effects.
    I was honored to serve recently on the Center for Strategic and 
International Studies (CSIS) Commission on Countering Violent Extremism 
(CVE), co-chaired by former Secretary of Defense Leon Panetta and 
former British Prime Minister Tony Blair. It is worth noting some of 
the findings from its report, ``Turning Point: A New Comprehensive 
Strategy for Countering Violent Extremism,'' published in November 
2016:

          Diminishing the appeal of extremist ideologies will require a 
        long-term, generational struggle. The United States and its 
        allies must combat extremists' hostile and apocalyptic world 
        view with the same level of commitment that it applies to 
        dealing with its violent manifestations. We urgently need a new 
        comprehensive strategy for countering violent extremism--one 
        that is resolute, rests in soft and hard power, and galvanizes 
        key allies and partners from government, civil society, and the 
        private sector.
          It is time for the U.S. government and its allies to go all 
        in to prevent the radicalization and recruitment of a whole new 
        generation. This is a problem that affects everyone. All 
        segments of society must pull together to defeat this global 
        scourge. Yet, they should not have to do so alone. The U.S. 
        government, its allies, especially from Muslim-majority 
        countries, and the private sector have an essential role to 
        play--providing leadership, political support, funding, and 
        expertise.
          The Commission's goal was to clearly articulate what the next 
        U.S. administration, in close collaboration with governmental 
        and nongovernmental partners, must do to diminish the appeal of 
        extremist ideologies and narratives. The plan has eight major 
        components:

 1. Strengthening resistance to extremist ideologies. The international 
        community must forge a new global partnership around education 
        reform to stop the teaching of extremist ideologies in schools. 
        At the same time, we must redouble efforts to enhance respect 
        for religious diversity, stem the spread of intolerance, and 
        reinforce community resilience to extremist narratives.

 2. Investing in community-led prevention. Governments should enable 
        civil society efforts to detect and disrupt radicalization and 
        recruitment, and rehabilitate and reintegrate those who have 
        succumbed to extremist ideologies and narratives. Community and 
        civic leaders are at the forefront of challenging violent 
        extremism but they require much greater funding, support, and 
        encouragement.

 3. Saturating the global marketplace of ideas. Technology companies, 
        the entertainment industry, community leaders, religious 
        voices, and others must be enlisted more systematically to 
        compete with and overtake extremists' narratives in virtual and 
        real spaces. It is the responsibility of all citizens to rebut 
        extremists' ideas, wherever they are gaining traction.

 4. Aligning policies and values. The United States should put human 
        rights at the center of CVE, ensuring that its engagement with 
        domestic and foreign actors advances the rule of law, dignity, 
        and accountability. In particular, the U.S. government should 
        review its security assistance to foreign partners to certify 
        that it is being used in just and sustainable ways.

 5. Deploying military and law enforcement tools. The international 
        community needs to build a new force capability and coalition 
        to quickly dislodge terrorist groups that control territory, 
        avert and respond to immediate threats, weaken violent 
        extremists' projection of strength, and protect our security 
        and the security of our allies and partners.

 6. Exerting White House leadership. The next administration should 
        establish a new institutional structure, headed by a White 
        House assistant to the president, to oversee all CVE efforts 
        and provide clear direction and accountability for results. The 
        Commission finds that strong and steady executive leadership is 
        essential to elevating and harmonizing domestic and 
        international CVE efforts.

 7. Expanding CVE models. The United States and its allies and partners 
        urgently need to enlarge the CVE ecosystem, creating flexible 
        platforms for funding, implementing, and replicating proven 
        efforts to address the ideologies, narratives, and 
        manifestations of violent extremism; and

 8. Surging funding. The U.S. government should demonstrate its 
        commitment to tackling violent extremism by pledging $1 billion 
        annually to CVE efforts, domestically and internationally. 
        These resources are meant to catalyze a surge in investment 
        from other governments, the private sector, and philanthropic 
        community.

          We can change the course of this threat. Doing so will 
        require aligning all of these pieces into a comprehensive 
        strategy and investing in CVE programs, partnerships, and 
        policies at scale and over the next decade or more.

    The report lays out in more detail sets of recommendations in line 
with these strategic goals. Without question, there needs to be much 
more emphasis on the CVE mission. This ideological fight is ultimately 
not just about terrorism. These are enemies of humanity--attempting to 
spread their ideology like a virus while reshaping borders, history, 
and identity. This demands stopping the manifestations of the ideology 
itself.
            The Laws of Physics Apply
    In counter-terrorism, the laws of physics matter. There needs to be 
constant presence and pressure to disrupt, dismantle, and deter the 
emergence of any serious group that has aspirations to attack U.S. 
interests. In the first instance, this means that we should do 
everything within the bounds of the law and our Constitution to collect 
relevant intelligence and information and to work with allies to ensure 
that we understand the threat landscape as it shifts. Terrorist threats 
will constantly adapt, and we should not be unilaterally disarming our 
ability to see, hear, and understand threats as they emerge.
    The United States must apply a sense of urgency and importance to 
countering ISIS, al Qaida, and the underlying and motivating ideology 
that animates the violent Islamic extremist movement.
    We also need persistent pressure against the key elements necessary 
for terrorist groups to survive: terrorist leadership--taking key 
strategic and operational leaders off the battlefield in rapid 
succession to prevent groups from growing or proliferating; financing 
and funding--squeezing resources (from local illicit economies to state 
sponsorship) to constrain a group's reach and strategic ambitions; and 
safe haven--denying any space in which a group can organize, plot, and 
exploit the resources or population.
    It is in these terrorist archipelagos now occupied and governed by 
terrorist groups that they are able to plot, train, interact, and 
adapt. With time, space, and leadership, motivated global terrorists 
will always innovate and surprise. These territories must be disrupted, 
and the links between various ISIS provinces and al Qaida affiliates 
must be cut.
    Though ISIS is difficult to dislodge, it is hard to imagine that 
the international community would allow a global terrorist organization 
that has struck so many parts of the world--including the heart of 
Europe--and inspired attacks in the United States, to operate a capital 
and to occupy and govern urban environments like Mosul, the second 
largest city in Iraq.
    This requires U.S. leadership, but it does not dictate that the 
U.S. be in all places all the time. The United States and her allies 
are facing a common terrorist enemy. The United States must therefore 
work closely with its trusted partners--to enable, support, and lead 
where necessary--to disrupt the short- and long-term threats from 
terrorism. Much of this work is underway, including with the U.S.-led 
coalition against ISIS, and the U.S. counter-terrorism community 
continues to focus on the emerging threats and disrupting them in 
concert with capable and willing partners.
            Effective and Trusted Partnerships are Essential
    Counter-terrorism can only work if there is close collaboration and 
trust with effective partners. Building capacity, reinforcing will, and 
enabling partners to act against emerging threats is a critical part of 
shaping the battle space and preventing terrorist groups from growing 
and the movements from metastasizing. This work must be constant to 
help build effective working relationships, not just in moments of 
crisis. As the Special Operations community likes to remind, ``You 
cannot surge trust.''
    In denying safe haven, the United States must in the first instance 
rely on and support legitimate local and regional partners that have a 
vested interest in ensuring that such zones are not allowed to fester. 
U.S. counter-terrorism strategy for the past decade has involved 
relying on and working with regional partners to disrupt and dismantle 
terrorist networks and safe haven. In Southeast Asia, East Africa, 
Central Asia, and other regions, this model has helped empower and 
enable U.S. allies to work together to combat terrorist groups in their 
midst. This model has yet to prove fully effective in all regions, and 
the expanding reach of ISIS and al Qaida is a challenge to the United 
States and the international community.
    The United States should enable key partners--especially European 
governments--by spurring even greater intelligence and information 
sharing, forcing European partners to sit together to understand the 
unfolding threat and determine or establish new mechanisms to increase 
real-time information sharing tied to terrorist suspects and plots. 
This will involve capacity building with European partners and 
increased collection and analysis to fill the gaps in knowledge around 
terrorist intentions and capabilities. This becomes critical as ISIS or 
successive groups expand beachheads and as the West defends itself 
against expeditionary terrorism coming from new safe havens. In concert 
with Europe, the United States should help enable local proxies and 
allies on the ground to fight ISIS and al Qaida directly. This approach 
has worked well in West Africa with the French taking the lead on the 
ground.
    This also means that the United States must prove to be a loyal, 
reliable ally--especially with local actors like the Kurds, on whom 
Washington has relied to fight ISIS and save populations. Continued 
support to such allies is critical to our long-term ability to enlist 
friends to fight with or for us.
    In the United States and with key allies, partnerships with the 
private sector are essential. The Department of Homeland Security and 
Department of State should move even more aggressively toward a model 
of layered, systemic defense and resilience for critical infrastructure 
and national systems. This is important as terrorist groups like ISIS 
begin to flirt with cyber capabilities, and other transnational actors 
and their state sponsors probe for weaknesses in the American system 
and economy.
            National Security Strategies Must Drive CT Strategies and 
                    Priorities
    It is self-evident that counter-terrorism strategies cannot be 
effective or sustainable if they are not nestled in a broader, coherent 
national security strategy. This is easier said than done.
    Administrations often say they do not want counter-terrorism to 
define and drive U.S. foreign or national security policy, but it is 
often the urgency and priority of counter-terrorism operations that 
begins to drive U.S. strategy in difficult regions of the world. This 
can make sense when there are no easy policy answers to long-term 
problems or crises, and the most obvious policy priority is defending 
the country from imminent threats.
    This does become debilitating or counterproductive when there is 
little recognition that terrorist movements have grown more 
sophisticated at exploiting local grievances, vacuums of governance and 
order, and sectarian tension to embed in communities and countries. The 
rapid rise of ISIS is a testament to the importance of diplomacy, 
politics, and partner commitment in ensuring that terrorist groups 
cannot gain hold. This is a lesson that we have applied well to the 
case of Afghanistan, where U.S. and NATO forces will remain to support 
President Ghani and the Afghan government.
    This is also important as Iraq, Syria, Libya, and other countries 
work to dislodge ISIS, al Qaida, or other terrorist groups--which leave 
behind physical, economic, and psychological scars and destruction. 
This requires demining, rebuilding, and reinvestment from locals, 
regional actors, and the private sector--and a political commitment by 
local governments to ensure reintegration and rebuilding of affected 
towns and populations. The problem of refugee flows and displaced 
persons--and the potential that such refugees could become disaffected, 
marginalized, or even radicalized ties the broader problems of 
dislocation to counter-terrorism. This all begins to sound and feel 
like nation-building, but the reality is that political, economic, and 
social vacuums are susceptible to conflict and exploitation and need to 
be addressed. Otherwise, organized terrorist groups will fill the void, 
as they continue to do in conflict zones.
    Counter-terrorism work is further complicated by the multiple 
actors and interests at play in the key conflicts like Syria, the 
underlying competition and currents in the region (for example, as seen 
between Iran and Saudi Arabia), and the need to tend constantly to the 
multiple political and diplomatic factors at play in the Arc of 
Instability. This is where a well-defined foreign policy is critical, 
and the trust and confidence of U.S. allies is essential--especially if 
we are asking them to make hard decisions or to sacrifice with us. 
Counter-terrorism can be an enormous enabler to our broader policies, 
but the United States needs to apply clear strategies and principles to 
our national security work for our counter-terrorism work to be 
effective in the long term.
            Words Matter
    How we talk about and classify the threat of terrorism and the 
enemy is critically important. It helps define the legal framework in 
which we operate, it explains our intentions and approach to friends 
and foes, and it shapes the policies and resources we apply to the 
problem. Our language should also reinforce our alliances, strengthen 
our message and ideals, and undercut the appeal of our enemies' vision 
of the world.
    Assessing threats and classifying the risks from terrorism are a 
fundamental part of how we calibrate our response and ultimately make 
decisions about what the nation will do to defend itself. If we 
underestimate the threat, we run the risk of ignoring threats as they 
gather and reacting only when it is too late. If we overestimate the 
risk, we may overreact, overextend, and misallocate our resources. We 
also need to be precise about the threats we are facing and allow for a 
``taxonomy'' of threats that we constantly reevaluate.
    In this regard, we have heard much that ISIS and terrorism are not 
an ``existential'' risk.
    Recalibrating and rationalizing risk is the right instinct, but 
articulating this in terms of ``existential risk'' has a strategically 
dangerous effect. This has the potential to dull the sense of urgency 
to confront the real and quickening strategic threat from ISIS and the 
movement that may follow.
    Repeated, targeted terrorism has strategic impact. Though the 
Islamic State may not be able to mount a 9/11-style attack, it has 
perpetrated terrorism from Brussels to Baghdad and inspired it in 
Orlando and San Bernardino. Al Qaida and ISIS have called on followers 
to attack with whatever means possible in Western countries, including 
driving into pedestrians. Aside from body counts, psychological impact 
and economic consequences, these attacks exacerbate social cleavages 
and political instability. They stoke fears of immigration at the 
height of a global refugee crisis and animate sectarian and reactionary 
forces.
    Viewing the threat in a binary fashion -- existential or not 
existential -- also fails to account for its dangerous and predictable 
adaptations over time. ISIS has adapted quickly by leveraging havens, 
especially in cities, and inspiring sympathetic networks throughout the 
world to present new threats. It reportedly downed a Russian commercial 
airliner, targeted the Egyptian navy and launched coordinated attacks 
under the noses of Western security services. It is flirting with 
weapons of mass destruction -- using chemical weapons, operating a 
chemical weapons unit and accessing labs at Mosul University. It has 
used the cyber domain to radicalize using peer-topeer technologies and 
to attack online with a new ``United Cyber Caliphate.''
    Such a maximalist formulation does not account for the reality that 
ISIS, al Qaida, or any successor can adapt very quickly and may present 
new and more dangerous threats to U.S. and allied interests--from use 
of WMD to cyber attacks.
    Further, articulating the threat only in ``existential'' terms 
leads to a myopic, insular foreign policy. The Islamic State poses a 
direct threat to U.S. allies, having a deeper impact on those societies 
-- from genocide and displacement of millions of refugees to the 
radicalization of Muslim youth and the hardening of reactionary forces. 
The French president has declared repeatedly that Europe is at war 
while mourning attacks on French citizens; Kurds and Iraqis are 
defending their families and communities; Jordan, Turkey and Lebanon 
endure attacks and the massive weight of refugees. To our friends 
fighting for their survival with the Islamic State on their doorstep, 
this threat looks existential.
    By seeming to care only about threats to the Homeland, we damage 
the perception of U.S. partnerships and weaken U.S. influence over the 
sacrifices our partners must make to defeat terrorism in their midst. 
If the threat is not ``existential,'' we may believe we can sit behind 
the oceans and contain it. This attitude can dull our willingness to 
make hard decisions.
    We must always push government agencies to imagine the unimaginable 
and not underestimate the will and capacity of global terrorist 
organizations to strike U.S. interests and allies. We must continue to 
invest resources and energy to prevent terrorist groups from 
developing, acquiring, or using weapons of mass destruction. The 
Nuclear Security Summits and work in both the Bush and Obama 
administrations--starting with the Global Initiative to Combat Nuclear 
Terrorism--is a great example of the United States focusing global 
attention on the potential of nuclear terrorism and the need to prevent 
it. The United States has concentrated its strategy, programs, and 
international engagements on preventing terrorists from acquiring or 
using biological, chemical, and nuclear weapons.
Conclusion
    With the right strategy, focus, and resources, there is no question 
the United States can execute an effective counter-terrorism approach. 
The United States has the ability, organization, strength, and allies 
to defeat violent Islamic extremism in any manifestation--al Qaida, 
ISIS, their affiliates, or whatever group may arise next. We should 
however take care to learn the lessons of the last fifteen years and 
not underestimate the ability of such terrorist groups to innovate, 
adapt, and ultimately threaten the United States.
    Thank you for the opportunity to testify. I look forward to your 
questions.

    The Chairman. Thank you.
    Mr. Ambassador?

   STATEMENT OF THE HONORABLE DANIEL BENJAMIN, THE NORMAN E. 
  McCULLOCH JR. DIRECTOR OF THE JOHN SLOAN DICKEY CENTER FOR 
 INTERNATIONAL UNDERSTANDING, DARTMOUTH UNIVERSITY, HANOVER, NH

    Ambassador Benjamin. Chairman Corker, Ranking Member 
Cardin, distinguished members of the committee, thank you very 
much for the opportunity to appear today. Thank you for holding 
a hearing on this vitally important subject on counter-
terrorism strategy, and thank you for appearing me with my old 
friend and colleague, Juan Zarate, with whose testimony I am in 
broad agreement.
    As we approach the beginning of a new administration, as we 
watch events unfold in the Middle East and the continuing 
damage being done to ISIS, key questions about our future plans 
and orientation are on the table. Let me begin by noting that 
over the past several years the United States has made 
significant progress against the major jihadist terrorist 
groups in the extraordinarily complicated and roiled world that 
was created by the chaos post-Saddam Iraq and the Arab 
uprisings of 2011 and after. Nevertheless, we face a range of 
threats that is increasingly diverse and more widely 
distributed geographically. The continuing appeal of the 
jihadist narrative and the adaptive nature of these groups pose 
an enduring challenge to our national security.
    At home--well, let me just say briefly that we saw in the 
period 2011 through 2014 a dramatic rise in global terrorism. 
At home, the San Bernardino and Orlando attacks more than 
doubled the number of jihadist-related deaths in the United 
States since the attacks of 9/11. The total, I would add, comes 
to 94, and that number, judged by any reasonable standard, is 
low and a testament to the extraordinary measures that the 
nation has taken since 2001 in law enforcement, intelligence, 
military operations, and migration.
    It also reflects the high level of integration of the 
American Muslim communities who have remained largely immune to 
the call of extremism. Indeed, if we consider that there have 
been upwards of 225,000 homicides in the nation in this period, 
the American populace I would argue has been remarkably well 
protected from this form of violence, even if the public 
discussion does not reflect this level of security. I say that 
recognizing full well that terrorist attacks carry unique and 
peculiar horror and that their toll must also be reckoned in 
terms of public confidence in our institutions and perceptions 
of our global standing.
    Having said all that, ISIS today is on the defensive. It 
has lost some 55 percent of the territory, inhabited territory 
captured in Iraq in 2014. It remains dangerous by virtue of the 
sanctuaries that it has where it can recruit, train, and 
execute external attacks, as we have seen in Europe, and to 
incite assailants around the world. Recent attacks in Europe 
further demonstrate that ISIS now has the intent and capability 
to direct and execute sophisticated attacks far from its 
territory. These attacks have increased in complexity and pace 
and are clearly intended to maximize casualties.
    In the United States, the threat of ISIS is somewhat 
different and on a smaller scale. The group to date has not had 
command and control of any of the attacks that have occurred 
here. Lone actors or insular groups, often self-directed, pose 
the most serious threat, and home-grown violent extremists will 
likely continue gravitating to simpler plots often involving 
firearms that do not require advanced skills, outside training, 
or communication with others.
    Terrorism has its own political economy, and for ISIS to 
retain its mantle of leadership in the jihadist movement it 
must achieve successes that offset and distract from its 
military setbacks. Many of those efforts are likely to be in 
Iraq and Syria since the local forces' ability to hold and 
reconquer territory will be limited.
    Continuing sectarian polarization in the region will mean 
that however unattractive they may find ISIS, many Sunnis will 
support it as a counter to the Shia-dominated government in 
Baghdad and to Shia militias. Major population centers, 
including Baghdad and other cities, are likely to see 
considerable terrorist violence.
    ISIS understands as well that another means to maintain its 
status is to strike out of area, especially in Europe and, if 
possible, North America. And as it loses its grip held on land 
since 2014, the operational tempo could well increase.
    Now, as I said before, to date we have no evidence of 
command and control in an ISIS attack in the United States, and 
I think we should be mindful of the reason why, because 
contrary to the situation that exists in Europe, and contrary 
to some of the rhetoric that we heard in the recent campaign, 
we do not have a dysfunctional immigration system, and we do 
know who is coming into our country. We have a highly 
sophisticated system with many layers. Its procedures have been 
steadily expanded and refined to the point where it bears 
little resemblance to the system whose vulnerabilities were 
exposed on 9/11.
    It is, of course, a human system, and therefore there will 
be another failure at some point. But since 9/11, it is 
important to underscore that every attack, every casualty 
caused in this country was caused by someone who was either a 
citizen or a green card holder.
    We should, I must say--and this is an echo of Senator 
Cardin and of what Juan has just said--we should expect that 
danger to grow if the tone and the approach of the new 
administration resemble in any way the tone and the approach of 
the campaign. The U.S. public had already been subjected to an 
enormous amount of fear-mongering while ISIS was on the rise in 
2014. Threats to cut off all Muslim immigration, restore water-
boarding and other forms of torture, create a national registry 
of Muslims, and kill the families of terrorists have all 
contributed to a profound unsettling of American Muslim 
communities. This will undermine our security in far-reaching 
ways, I fear.
    It is important to remember that while intelligence and law 
enforcement do a great deal to prevent attack, it is also 
because of the American Muslim community, which has been 
largely immune to extremism, that the number of victims is so 
low. Not only are they immune to extremism but they are also 
the source of a large percentage of the law enforcement and 
intelligence tips that prevent plots from occurring.
    Now, I recognize that the time is short, and I do just want 
to get to a few of the other issues that you have asked about. 
But I do want to just say that, first of all, we should have no 
illusions about our ability to eliminate the jihadist threat, 
which I think is a persistent problem, particularly in policy 
debates. Given the historic dimensions of the changes in the 
Middle East, I am afraid that we will be seeing terrorist 
violence and jihadist violence for decades to come. It is 
nonetheless a threat that I believe we can defend against and 
manage if we remain clear-eyed and do not make the mistake of 
over-reaction that the jihadis hope we will.
    On the military side, I think that we have innovated and 
developed really an extraordinary toolkit that will enable us 
to continue reducing terrorist/insurgent groups in a very 
effective way, and this is really the refinement of the drone 
program together with Special Operations in-theater that have 
been so effective at intelligence gathering and, by the way, 
enabling local forces and targeting high-value operatives and 
leaders.
    As a way of avoiding putting large numbers of forces into a 
combat role, this approach has been successful, although it 
requires a great deal of patience while the intelligence base 
is built. But those costs in terms of time are more than offset 
by the lack of radicalization that ensues from large 
deployments.
    We need to do more capacity building. The Obama 
administration pursued this vigorously in its second term and I 
think that, to put it bluntly, we must have capable partners, 
especially in the developing world, and we must have them on 
the military side, but we must also have them on the civilian 
side, and that has been I think woefully underfunded. We need 
to have partners who have courts that can convict terrorists, 
police that can catch them, prisons that can incarcerate them, 
and they need to be treated in a way that observes the rule of 
law, because, as we know, radicalization is a direct response 
of repression.
    We need to strengthen our relationships, and I agree with 
Juan on this one entirely. That includes working with our Sunni 
partners to try to move them from an excessive focus on 
sectarian issues to curbing extremism, and we need to work with 
our European partners, who need to do a better job on 
intelligence and law enforcement.
    We need to prevent radicalization and recruitment at home, 
and I will end just by saying here that I think we need to 
rebalance our efforts away from counter-messaging, which I 
think has not shown the kind of yield, the kind of effects that 
we had hoped for, and towards more direct intervention in 
communities where teachers, health care providers, religious 
leaders and the like can intervene when they see that 
individuals are at risk of radicalization.
    There is much more to talk about, but I think that is a 
good place to stop. I want to thank you again for the 
invitation. I look forward to your questions.
    [The prepared statement of Daniel Benjamin follows:]

            Prepared Statement of Ambassador Daniel Benjamin

    Chairman Corker, Ranking Member Cardin, Distinguished Members of 
the Committee:
    Thank you for the opportunity to appear before the Committee today, 
and thank you, as well, for holding a hearing on the vitally important 
subject of counter-terrorism strategy. As we approach the beginning of 
a new administration, and as we watch events unfold in the Middle East 
and the continuing damage being done to ISIS, key questions about our 
future plans and orientation are on the table.
    Let me begin by noting that over the past several years, the United 
States has made significant progress against the major jihadist 
terrorist groups in the extraordinarily complicated and roiled world 
that was created by the U.S. invasion of Iraq and the Arab uprisings of 
2011 and after. Nonetheless, today the range of threats we face has 
become increasingly diverse and more widely distributed geographically. 
The continuing appeal of the jihadist narrative and the adaptive nature 
of these groups pose an enduring challenge to our national security.
    In sheer numbers, global terrorist violence rose dramatically in 
2011-2014, with the number of fatalities roughly tripling in this 
period to about 33,000. In 2015, the incidence of attacks declined 
somewhat, and that appears to be continuing this year, but the overall 
level of violence in historic terms remains very high. The proximate 
drivers of this development have been the rise of ISIS, several ISIS 
affiliates and Boko Haram, which has declared its loyalty to ISIS.
    At home, the San Bernardino and Orlando attacks more than doubled 
the total number of jihadist-related deaths in the United States since 
the attacks of 9/11 to 94. That number, judged by any reasonable 
standard, is low and a testament to the extraordinary measures the 
nation has taken since 2001 in law enforcement, intelligence, 
immigration and military operations. It also reflects the high level of 
integration of American Muslims, who have remained largely immune to 
the call of extremism. Indeed, if we consider that there were upwards 
of 225,000 homicides in the nation in 2002-2016, the American populace 
has been remarkably well protected from this form of violence--even if 
the public discussion of the terrorist threat does not reflect this 
level of security. I say that recognizing full well that terrorist 
attacks carry a unique and peculiar horror, and that their toll must 
also be reckoned in terms of public confidence in our institutions and 
perceptions our global standing. I would add, by the way, that most 
analysts agree that the nation is considerably safer from 
unconventional attack than it was during the years after 9/11, when al 
Qaeda remained interested in acquiring and using weapons of mass 
destruction. Nonetheless, in the minds of many Americans, the aggregate 
threat has grown markedly because of the surge of attacks in the United 
States and Europe during the period of ISIS's ascendance.
    ISIS today is on the defensive, having lost some 55 percent of the 
inhabited territory it captured in Iraq in 2014, but the group still 
presents a persistent and critical threat. It has exploited the 
conflict in Syria and sectarian tensions in Iraq to entrench itself in 
an area at the geographic center of the Middle East. Using both 
terrorist and insurgent tactics, the group has seized and is governing 
territory, while at the same time securing the allegiance of other 
terrorist groups across the Middle East and North Africa. ISIS's 
sanctuary enables it to recruit, train, and execute external attacks, 
as we have now seen in Europe, and to incite assailants around the 
world. Most important, ISIS's core idea of creating a caliphate--an 
authentically Islamic polity--and its record of capturing and governing 
territory has galvanized extremists in a way that Usama bin Laden's al 
Qaeda never could. It has recruited tens of thousands of militants to 
join its campaign in the region and to become cadres for bringing the 
fight back to their home countries. The group also uses its propaganda 
campaign to radicalize others around the world through a sophisticated 
set of online approaches.
    Recent attacks in Europe further demonstrate that ISIS now has the 
intent and capability to direct and execute sophisticated attacks far 
from its territory. Over the past year, ISIS has increased the 
complexity and pace of its external attacks, which are not merely 
inspired but planned, directed and executed by ISIS personnel with a 
clear intention to maximize casualties by striking highly vulnerable 
targets. The Mumbai-like multi-pronged attack in Paris in November 2015 
and the multiple bombings in Brussels in March exposed the weakness of 
French and Belgian counter-terrorism capabilities and the large 
majority of European nations are unlikely to do much better. The 
continent also faces a protracted struggle with homegrown extremism, as 
the Charlie Hebdo and Nice attacks indicate, as well as many foiled 
plots elsewhere. As ISIS territory comes under greater pressure, the 
incentive to carry out terrorist attacks ``out of area'' will continue 
to grow, and with more foreign fighters returning to their home 
countries, the chances of such events will grow. Recent reports that 
ISIS has used chemical weapons in Syria, and that it conducted 
surveillance of Belgian nuclear facilities raise the new specter that 
the group may be developing an interest in weapons of mass destruction.
    In the United States, the threat from ISIS has been on a smaller 
scale. The rise of ISIS almost certainly drove the perpetrators of the 
San Bernardino and Orlando killings, even if the group had no hand in 
command-and-control, and there has been an uptick over the past year in 
the number of moderate-to-small scale plots. Lone actors or insular 
groups, often self-directed or inspired by overseas groups like ISIS, 
pose the most serious threat here. Homegrown violent extremists will 
likely continue gravitating to simpler plots that do not require 
advanced skills, outside training, or communication with others. The 
online environment serves a critical role in radicalizing and 
mobilizing homegrown extremists towards violence. Highlighting the 
challenge this presents, Director Comey said last year that the FBI has 
roughly 900 cases homegrown violent extremist cases, including at least 
one in every state. Most of these cases are connected to ISIS.
    Although the battle for Mosul continues--and the humanitarian toll 
there has been appalling--ISIS is unlikely to be able to reverse its 
decline. The number of fighters migrating to ISIS controlled territory 
has dropped dramatically, reportedly from a peak of 2000 a month down 
to 50, and the group's financial resources are under enormous strain. 
The U.S.-led military campaign has killed thousands of ISIS fighters 
and significantly rolled back ISIS's territorial gains in parts of Iraq 
and Syria. ISIS has not had any major strategic military victories in 
Iraq or Syria for over a year. As ISIS loses its hold on territory, its 
claim that it has established the ``caliphate'' will be eroded, and the 
group will lose much of its distinctive appeal. Outside of the Iraqi/
Syrian theater, the U.S. carries out regular attacks on ISIS targets in 
Libya in coordination with the Government of National Accord.
    Terrorism has its own political economy, and for ISIS to retain its 
mantle of leadership in the jihadist movement, it must achieve 
successes that offset and distract from its military setbacks. Many of 
those efforts are likely to be in Iraq and Syria, since the local 
forces' ability to hold and police reconquered territory will be 
limited. Continuing sectarian polarization in the region will mean that 
however unattractive they may find ISIS, many Sunnis will support it as 
a counter to the Shia-dominated government in Baghdad and Shia 
militias. Major population centers--including Baghdad and other cities 
relatively distant from ISIS-controlled areas--are likely to see 
considerable terrorist violence.
    ISIS understands well that another means to maintain its status is 
to strike ``out of area''--especially in Europe and, if possible, North 
America. As it loses its grip on lands held since 2014, the operational 
tempo for such attacks could well increase, and the potential for 
impact is great. The increase in jihadist violence in Europe--both 
ISIS-organized and lone wolf--has caught our allies unprepared. Without 
a catalytic experience like 9/11, continental Europeans have 
underfunded intelligence and law enforcement for years, paid too little 
attention to radicalization in their midst, and failed to integrate 
their efforts across national boundaries. As ISIS decays, the danger 
from returning foreign fighters will increase. Weak external borders 
and the Schengen regime, decades of failed integration policies, the 
migration crisis, the rise of populist politics, and petty rivalries 
between intelligence and law enforcement have all aggravated the 
situation.
    Here in the U.S. the picture is different. Contrary to what the 
President-elect maintained throughout the recent campaign, we do not 
``have a dysfunctional immigration system. that does not permit us to 
know who we let into our country.'' Rather, we have a highly 
sophisticated system with many layers. Its procedures have been 
steadily expanded and refined to the point where it bears little 
resemblance to the system whose vulnerabilities were exposed on 9/11. 
It is, of course, a human system, so we will undoubtedly find new 
shortcomings in future. We must innovate constantly. But it is worth 
recalling that not a single terrorism-related death since 9/11 was 
caused by foreign operatives coming into the country to cause violence. 
From Fort Hood to Orlando, the killings were all caused by U.S. 
citizens and green card holders. So the principal danger will remain 
from homegrown extremists, especially those who operate alone or in 
very small groups. Although, as has been detailed in the press, the 
U.S. has become more effective at targeting online recruiters, we 
should expect that ISIS will step up its efforts to incite sympathizers 
in the country to carry out ``individual acts of jihad.''
    We should also expect that danger to grow if the tone and approach 
of the new administration resembles in any way the tone and approach of 
the Trump campaign. The U.S. public had already been subjected to an 
enormous amount of fear-mongering while ISIS was on the rise in 2014. 
But threats to cut off all Muslim immigration, restore waterboarding 
and other forms of torture, create a national registry of Muslims and 
kill the families of terrorists all have contributed to a profound 
unsettling of American Muslim communities. So too do now famous tweets 
from incoming National Security Advisor Mike Flynn saying, for example 
that, ``Fear of Muslims is RATIONAL.''
    All this demagoguery may have made for effective electoral 
politics, as political scientists have observed, but it will undermine 
our security in far-reaching ways. Intelligence and law enforcement do 
a great deal to prevent attack, but it is also because of the 
relatively well-integrated American Muslim community, which has been 
largely immune to extremism, that the number of terrorism victims at 
home is so low. That is true in two important ways: First, American 
Muslims are much less likely to become radicalized. Using travel to 
ISIS territories as a proxy, American Muslims are about one-third as 
likely to become extremists as their European co-religionists. Second, 
American Muslims provide law enforcement with a large volume of tips 
that lead to arrests in terrorism cases--according to some estimates, 
almost half of such information. If these communities feel that the 
authorities are not on their side, then there will be fewer tips and, 
of course, more radicalization. The sense of isolation that community 
leaders have expressed is a danger sign that should be heeded. The 
spike in anti-Muslim hate crime that has accompanied the presidential 
campaign provides yet another reason for concern and course correction. 
Otherwise, we are clearing the way for increased jihadist recruitment 
in the U.S., which we will come to regret.
    Let me turn to our strategy going forward. The U.S. will of course 
need to continue to use a variety of tools, some of which we have 
mastered, others that require innovation. It is difficult to predict 
precisely how the jihadi threat will evolve. One thing that we can rule 
out with some confidence is that the diminution and even defeat of ISIS 
will lead to a large-scale reduction in the jihadi threat. We have the 
military might to dramatically affect individual groups, but no amount 
of military strength will eliminate the jihadist movement.
    To begin with, as long as the fires of the conflict in Syria burn, 
radicalization will also continue. In this context, it is worth noting 
that a policy along the lines suggested by President-Elect Trump in 
Syria--to include working with Russia against jihadis and, as 
inevitably would be the case, the Syrian opposition--would exacerbate 
matters. If our Sunni partners in such countries as Saudi Arabia, 
Qatar, and elsewhere see the U.S. siding with Russia, and, by 
extension, with Syria and Iran, it will cause a deeper rift in our 
already strained relations, and may cause them to abandon all restraint 
regarding who they arm and fund in the Syrian civil war. Needless to 
say, this would be disastrous for our efforts to bring peace to Syria 
or to limit radicalization.
    While ISIS looms large in the constellation of bad actors today, we 
need to keep sight of the larger historical developments that have 
spawned the jihadist movement. Poor governance in most of the Arab 
world, chronic economic underperformance, marginalization and 
alienation of youth, the Arab uprisings of 2011-2012 and consequent 
weakening and/or failure of multiple states have created opportunities 
for the extremists that far surpass anything seen in the past. The 
overlapping Sunni-Shia split/regional rivalry between Saudi Arabia and 
Iran has further energized militants and created precisely the kind of 
conflicts in Syria, Iraq, and Yemen that breed extremists who will 
direct their violence against the West as well as sectarian opponents. 
The kind of upheaval we see in Libya, a country that had all its 
institutions destroyed under Qaddafi, provides another kind of venue 
for dangerous radicalization. In Europe, the failure to integrate 
immigrants, youth unemployment, and discrimination will continue to 
feed extremism. Defeating ISIS in Iraq and Syria so it can no longer 
hold territory will help quell global extremist sentiment. But even if 
the group is decisively set back, we can expect additional violent 
jihadist groups to emerge for many years to come. We cannot exclude the 
possibility of a revival of al Qaeda, perhaps growing out of the 
turmoil in Yemen. We also should not rule out the emergence of an 
entirely new generation of jihadist threats, which might, for example, 
emanate from the growing crisis of governance and repression in Egypt. 
The threat, in short, will confront us for many years to come.
    It is, nonetheless, a threat that we can defend against and manage 
if we remain clear-eyed and do not make the mistake of overreaction 
that the jihadis hope we will. The Obama administration has employed 
military force, intelligence operations, law enforcement and diplomacy 
to implement its counter-terrorism policy. I believe these tools have 
served us well and should continue to be at the heart of our efforts 
going forward. The signature initiative of the first Obama term--the 
drone campaign against al Qaeda--has been updated in the fight against 
ISIS in Iraq and Syria to include more manned air strikes, special 
operations efforts and training and equipping of Iraqi, Kurdish and 
Syrian opposition forces. The approach has achieved real success, 
though it requires patience--a scarce resource--while the necessary 
intelligence base is built up for the campaign. The military effort has 
also successfully targeted a significant number of ISIS leaders. United 
States special operations forces have gone into Syria to support the 
fight against ISIS, bringing a unique set of capabilities, such as 
intelligence gathering, enabling local forces, and targeting high-value 
ISIS operatives and leaders. As a way of avoiding putting large number 
of forces into a combat role, this approach has been useful and 
effective; whatever the costs are in terms of time till success, they 
are more than offset by the lack of radicalization that ensues from 
large deployments.
    Let me briefly address some other key considerations--there are far 
too many to address them all--that I believe will be important to 
success against terrorism. One important requirement is capacity 
building, which has grown in importance during President Obama's second 
term. Multi-billion dollar requests beginning in 2014 were sent to the 
Hill to support both military and civilian efforts. Congress amply 
funded the military request in the first round but denied funding to 
State. In 2016, however, Congress did partially fund State's 
Counterterrorism Partnership Fund requests for both traditional 
capacity building efforts focused on law enforcement and high-end 
police capabilities. To put it bluntly: the U.S. must have capable 
partners, especially in the developing world, where states are often 
too weak to defend themselves fully. It is, moreover, imperative that 
the resources be made available for civilian-side capacity building 
that increase capabilities while respecting human rights--a paramount 
concern if we are to avoid the repressive approaches that drive 
radicalization. That means strong police, strong courts, legislatures 
capable of trying and convicting terrorists and prisons capable of 
incarcerating them. We will not always succeed in these efforts, but we 
still must broaden them to more countries and deepen our engagement. 
Such work will repay the investment when the U.S. does not need to 
deploy forces to deal with more jihadist violence far from our borders.
    We must strengthen and, in some cases, revitalize our bilateral 
partnerships as part of a broader effort to construct an international 
coalition against ISIS and jihadist extremism and to resolve the 
underlying conflicts in the broader Middle East. The administration has 
had limited success at eliciting help from Sunni coalition partners; 
the overwhelming majority of partner support has come from Australia 
and Western European countries, and that still amounts to a third or 
less of our overall contribution. Although Jordan and Bahrain have made 
noteworthy contributions, Saudi and Emirati forces have done little, 
focusing their efforts instead on the fighting in Yemen. Turkish forces 
have also contributed little. So long as the region is more focused on 
the sectarian divide, containing and eliminating extremism will be a 
secondary or tertiary concern. (Russian efforts, it should be noted, 
have focused chiefly on opponents of the Asad regime--not ISIS.)
    That said, President-Elect Trump will have his work cut out for him 
in this area. Some leaders of Muslim nations--especially non-democratic 
ones--may at first be eager to work with a U.S. president who will not 
lecture them on human rights or democracy, but their publics are 
unlikely to understand why they are meeting or cooperating with someone 
who has spoken so disparagingly of Islam, threatened to block Muslims 
from entering the U.S. and opined that there was a `` `sickness' in 
Islam.'' Since we rely on these partners for intelligence that has 
saved American lives, this is a major concern.
    Our partnerships with the Sunni Arabs are not the only ones 
requiring attention. Although our bilateral intelligence sharing with 
European partners is generally acceptable, we need them to step up to 
become more productive collectors at home and abroad, especially as the 
number of foreign fighters returning from the conflict in Syria 
continues to increase. (The migration crisis remains outside the scope 
of this hearing, but a robust U.S. effort to ameliorate that issue may 
be needed, including through acceptance of more immigrants and active 
diplomacy to ensure that those requiring resettlement outside the 
region are equitably distributed.) Although our intelligence and 
immigration systems have performed well in keeping terrorists out, 
Europe is at least partially within our security perimeter due to the 
visa waiver program and deep economic ties. Our cooperation on counter-
terrorism efforts outside the continent--including on high-priority 
development work--remains fragmented. The U.S. has a vital interest in 
European security as well as in Europe's performance as a counter-
terrorism partner inside and outside the continent. We must press 
European leaders for greater integration of intelligence and law 
enforcement operations especially within Europe but also across the 
Atlantic; we also have an interest in seeing increased intelligence and 
military cooperation and targeted development assistance and capacity 
building in third countries. None of this will be easy during a period 
when the transatlantic agenda will already be overloaded with such 
issues as Russia, trade and the future of NATO topping a list of urgent 
issues.
    We will continue to need a robust effort to block terrorist 
finance. In 2015, the U.S. government sanctioned more than 30 ISIS-
linked senior leaders, financiers, foreign terrorist facilitators, and 
organizations, helping isolate ISIS from the international financial 
system. Vigorous continuation of such efforts against ISIS and other 
terrorist groups is vital.
    We must also deepen our efforts to prevent radicalization and 
recruitment at home and abroad. A recognition that a more comprehensive 
approach was needed to defeat ISIS--one that included a focus on 
addressing the factors driving ISIS recruitment led the White House to 
stage an ambitious summit on Countering Violent Extremism (CVE) in 
early 2015 and to initiate more vigorous programmatic efforts at home 
and overseas. The infrastructure is there for meeting global needs: The 
Global Counterterrorism Forum remains an effective institution for 
propagating best practices in CVE and civilian CT, and the State 
Department-led the creation of the multilateral Global Community 
Engagement and Resilience Fund--an innovative public-private fund to 
channel grants to local NGOs working on CVE.
    In my view, we need to accelerate efforts in this area and 
especially rebalance our work to support programs that empower 
communities to intervene with at-risk individuals. Overall funding of 
CVE--from both the U.S. and partner countries--remains minuscule, with 
CVE accounting for less than 10 percent of State/CT's capacity-building 
budget. While the global trend has been toward more direct community 
engagement aimed at addressing local grievances and providing 
vulnerable young people alternative paths, the administration has still 
devoted much of its CVE energy to counter messaging, focusing in 
particular on the attempt to undermine ISIS online propaganda. In 2016, 
the administration folded the Center for Strategic Counterterrorism 
Communications (CSCC) into the new GEC, ended CSCC-originated messaging 
and created new communications hubs--the first in Dubai and then 
another in Malaysia--to be run by Muslim partners. Obviously, we cannot 
abandon the public communications sphere to the extremists. At the same 
time, though, it is questionable whether messaging linked to ``apostate 
regimes'' will be more successful than US-produced messaging. Expert 
opinion has become increasingly doubtful about the value of such 
campaigns. While some messengers (ISIS defectors, for example) may be 
effective, too often, we are spending large sums to reach young people 
who are cognitively closed to such appeals.
    At home, we also need to realign and deepen our efforts to counter 
extremism. American Muslim communities may be our first and best 
defense against homegrown radicalization and terrorism as they are the 
most likely to recognize the behavioral patterns of radicalization 
before it's too late and intervene to help set a young person straight. 
Unfortunately, the trust between these communities and the government 
is very uneven. Law enforcement is perceived by some as untrustworthy. 
There are few, if any, non-law enforcement alternatives to which to 
report concerning behavior. And interventions, such as counseling to 
prevent violence before law enforcement is needed, remain quite limited 
and entirely ad hoc. The FBI and its state and local partners have 
achieved some remarkable successes--most recently, the swift 
apprehension of Ahmad Khan Rahami, in New Jersey in September. Such 
accomplishments increase deterrence against would-be terrorists, but if 
we seek to stop radicalization before the turn to violence has 
occurred, approaches other than law enforcement are also necessary.
    This requires engaging and empowering communities: families, peers, 
teachers, religious leaders, mental and public health professionals, 
social workers, and others who are often in the best position to 
recognize signs of radicalization in young people and work, where 
appropriate, with law enforcement to intervene before it's too late. 
This is particularly important given that the perpetrators of each of 
the recent attacks exhibited behavior that suggested that they were 
becoming or were already radicalized. That behavior was observed by 
community members who either lacked the knowledge or training, were in 
denial, or did not know to whom to turn to other than law enforcement. 
Community members need encouragement, guidance, and flexible resources 
from all levels of government, as well as the private sector to play 
this preventative role effectively and to develop ``off-ramp'' programs 
for those at risk or who have begun to embrace terrorist propaganda but 
have not committed a crime. In order to broaden and deepen the 
involvement of communities in this work, these efforts should be 
anchored in a framework centered on preventing targeted violence rather 
than the narrower ``CVE'' law enforcement-centric approach that has not 
gained traction in or, in some cases, alienated communities. A more 
effective approach--similar to what is done in the world of public 
health--would involve detecting and interrupting a behavior before it 
becomes dangerous and spreads, changing the thinking of those most at 
risk, and, in time, reshaping the social norms that exacerbate those 
risks.
    Pilot programs in Boston, Chicago Los Angeles, Minneapolis and 
Montgomery County, Maryland have been working developing this kind of 
effort. Framing the work in this way will facilitate efforts to involve 
mental health and social service professionals, educators, teachers, 
religious leaders, not to mention federal departments and agencies 
(e.g., HHS and Education) that have so far been reluctant to get 
seriously involved in CVE efforts, and will allow for the development 
of the necessary multi-disciplinary/agency approach both in and outside 
the Beltway. This, I would submit, is a true ``whole of society'' 
approach to addressing the multi-faceted challenge of violent 
extremism.
    Let me close with a final global perspective, which I confess I 
offer with little hope that it will make a dent anywhere. The 
durability of the jihadist movement reflects the profound social, 
governmental and economic dysfunction of many Muslim nations. Since 9/
11, analysts and policymakers--including Secretary Kerry--have spoken 
of the need for a comprehensive economic and political reform effort 
along the lines of a Marshall Plan in the MENA region. The nation, I 
strongly believe, should consider whether it is desirable and feasible 
to undertake a genuinely global effort to address the root causes of 
extremism, which would entail significant large scale non-military 
capacity building, human capital development, local economic 
opportunity unencumbered by overbearing bureaucratic impediments, and 
poverty alleviation.
    Thus far, the costs of the Iraq and Afghanistan Wars, the Great 
Recession and the state of Western budgets have prevented any serious 
consideration of such an initiative, including at the time of the Arab 
Spring, when sympathy for many Middle Eastern countries was greatest. A 
meaningful initiative may remain simply out of reach because 
prospective partner governments will refuse to reform or require 
exorbitant subventions to make it worthwhile for them. Prospective 
partners may be unwilling to support a program that will not pay off 
for decades. Still, we need to examine the concept of deep engagement 
with Muslim-majority countries to advance democratic institutions and 
economic opportunity. The region is dangerously broken, and leaving it 
in its current condition is a recipe for the development of further 
extremism. Such an effort would obviously require support from Europe, 
the Gulf, the Pacific Rim and North America.
    Quite clearly, such an approach is unlikely to fit in with a 
narrowly conceived governing concept of ``America First.'' Nonetheless, 
in light of the hundreds of billions of dollars we spend every year on 
counter-terrorism, we would be derelict not to think long and hard 
about the possible benefits such a comprehensive approach might yield.
    Thank you again for the opportunity to present this testimony.


    The Chairman. Well, thank you both for those very expansive 
opening comments.
    With that, I will turn to the distinguished ranking member, 
Ben Cardin.
    Senator Cardin. Well, Mr. Chairman, first off I want to 
thank both our witnesses. I thought you gave a very 
comprehensive outline on our strategies moving forward to 
counter-terrorism.
    Mr. Benjamin, I could not agree with you more about the 
importance and the realities of the relationships with the 
Muslim community has paid off major benefits as far as safety 
in our community. Maryland has a significant Muslim community. 
I have worked a long time on the relationship with local 
police, with our intelligence communities, and that 
relationship has kept I think our state safer, and it is in 
everyone's mutual benefit. If that trust does not exist because 
there is a view that by helping government you are hurting your 
own people, then that really jeopardizes everyone's safety. So, 
I appreciate that point.
    Mr. Zarate, thank you for mentioning the CSIS study, 
``Turning Point.'' It pointed out very clearly that we have to 
avoid reactions that play into violent extremists' hands. It 
included a former al Qaeda recruiter as saying, ``Radicals and 
recruiters love Islamophobia. It drives recruitment.'' The 
report further advises that it is important for governments to 
avoid rhetoric and responses that estrange Muslim communities.
    So I just really want to underscore that point, that we 
really play into making our country more vulnerable when we use 
that type of rhetoric that estranges Muslims around the world.
    I do want to ask both of you a question, though, about what 
we should be doing here in this committee. As I pointed out in 
my opening statement, most of our resources to fight terrorism 
are on the defense side, the DOD side. This committee is 
responsible on the State Department and on the so-called ``soft 
powers.'' We know the importance of good governance. We have 
seen that play out directly in Iraq, that if you do not have a 
comprehensive government that all communities respect, you are 
not going to be able to maintain peace.
    We have resources in our State Department through 
diplomacy, through development assistance. Where do you see the 
most effective use of those resources? Where could we be doing 
better? What would you recommend should be our priorities in 
fighting terrorism using your own terminology that we need a 
comprehensive foreign policy? How would you have us use those 
tools more effectively to counter terrorism?
    Ambassador Benjamin. If I may, Senator, I believe that it 
is very important to continue with the capacity building in the 
military field and the intelligence field, but I think that we 
have lagged on the civilian side. We need to do a better job in 
terms, as I referred to in my testimony, of training the police 
who deal with counter-terrorism. Remember, in most of these 
countries, terrorism, as it is in ours, is a police issue, not 
a military issue. We need to strengthen their ability to track 
terrorists, to collect intelligence on them, but also to try 
them, incarcerate them, and also to do the work of countering 
violent extremism which is so vital to tamping down 
radicalization.
    The State Department I think does a good job to the extent 
that it is engaged in these areas, but I think it is important 
to note that capacity building efforts have grown exponentially 
in every other part of the government, and I would say perhaps 
arithmetically.
    Senator Cardin. Mr. Zarate, I am going to give you a chance 
to respond, but I just want to underscore that point. If you 
look at our development assistance, most of those funds go into 
health programs or food programs, which are very important. I 
am for those programs. I do not want to see those programs 
marginalized. But the money we spend on capacity building is 
not very great. If we look at where the seeds are already there 
for growing terrorists such as Africa, where we could be doing 
so much more in capacity building, and yet our investments in 
capacity building in Africa are very, very small.
    Mr. Zarate?
    Mr. Zarate. Sir, I can be quick because I agree with 
everything Dan has said. I think there are three categories, 
really, for you to consider. I think there is the partner 
capacity issue that Dan has mentioned, and that is everything 
from law and order to the ability to govern.
    There are the questions of the aftermath of these 
terrorist-held territories. What happens in Mosul after ISIS is 
dislodged? We have seen this problem in Ramadi and Fallujah. 
How is it rebuilt? What does governance look like? How is trust 
rebuilt with the citizenry? We are not going to do that, 
obviously, the Iraqis have to do it, but we have to be present 
and we have to have the ability to impact that.
    And finally, a bigger question here, and it emerged in the 
context of the Arab Spring where there was a lot of, I think, 
Pollyannish analysis that things would go incredibly well, that 
the arc of history would bend in our direction in terms of the 
Arab Spring. There was a lot of discussion at the time as to 
whether or not we needed to consider a Marshall Plan-like 
structure for dealing with what was inevitably going to be 
dislocations, lack of governance and, frankly, pockets of 
vacuums that terrorists and jihadis were going to fill. Many of 
us were warning that this was probably going to happen.
    I think those three areas are three conceptual areas where 
this committee can focus.
    One final point. There is room for private sector 
engagement in a way that we have not done creatively enough. In 
the report on countering violent extremism, we lay out some 
very interesting ideas for how to leverage the private sector 
not just from a media perspective but in terms of actually 
organizing against the manifestations of the ideology as it 
emerges in places like Bangladesh, Nigeria, and around the 
world. The private sector has a key role to play, and there are 
a number of programs that need to be scaled up and supported, 
and I think that is something for this committee to look at.
    Senator Cardin. Thank you. I thank both of you again for 
your testimony.
    The Chairman. Thank you.
    Senator Perdue?
    Senator Perdue. Thank you.
    I want to follow the money, briefly. It just seems to me, 
looking at this, that we are at war, and sometimes we do not 
approach it that way. I believe our homeland has been invaded. 
When you see the rise of home-grown terrorists, the lone wolves 
and so forth who have been radicalized through social media and 
the Internet, I believe our borders have been breached. I think 
we are at war, and I think we have got to face up to that 
reality.
    But I want to talk about the financing of this. Mr. Zarate, 
to start with, we saw ISIS grow very radically early and 
rapidly through the use of oil resources, selling antiquities. 
In other parts of the world we see the illicit trade of 
wildlife and so forth. What can we do? I mean, you were the 
first undersecretary that really attacked this, I believe, and 
what I would like to get at is what are the loopholes? What are 
the ways that we can track the money and actually fight them 
through the financial ways that we can, and also limit their 
use of established financial systems throughout the world?
    Mr. Zarate. Senator, great question, and they both link, 
actually, because I think one of the things that we were slow 
to realize is that in cutting off terrorist funding, which is 
essential to cutting off the lifeline for these groups to give 
life to their programs to have global reach, you have to 
actually treat it like a war. And especially when these groups 
are holding territory, holding resources, have populations and 
even financial institutions at their command, we actually have 
to find ways of physically dislodging them, and that is what 
has been so effective over the last year-plus. We have 
dislodged them from their control of territory, oil resources, 
hit their mobile refineries. We have even begun to hit them 
physically, their cash centers. We have seen these videos of 
the U.S. military blowing up these cash centers and the cash 
flying up in the air.
    So the first thing we have to recognize is that when these 
groups--and more and more of these groups are figuring out that 
they can control localities and local economies--when they 
control those economies, you actually have to physically 
dislodge them. There is not much you can do from afar to effect 
what they can do on the ground, and we have done that 
relatively well over the last year.
    The second thing that can be done, Senator, is to find 
where those chokepoints are in the system where their economy 
hits the regional or even the global economy. So in the context 
of ISIS, the question was who are the brokers with whom they 
are doing business? How are they actually moving their money? 
How are they trading in antiquities? How are they selling their 
oil? Where are the money service businesses that they are 
operating? What money service businesses or banks are they 
using in Mosul, or even Raqqa, or Sirte, to actually move their 
money? So finding what those chokepoints look like is 
essential, and frankly intelligence is key to that, and I think 
we were a bit blind to how this emerged. We have gotten much 
better----
    Senator Perdue. Have we focused the resources to really do 
what you are saying there?
    Mr. Zarate. I think we have now. With our departure in 
2011, in all honesty, I think we blinded ourselves to what was 
emerging. We had seen with the terrorist financing tracking 
cell that we had established in Iraq how al Qaeda was using 
some of the same mechanisms that ISIS eventually used. We 
dismantled that capability, and we have been playing catch-up 
ever since.
    So I think it is important to realize that the long pole in 
the tent here is intelligence and information to understand 
where these groups, be they the groups and militias using 
wildlife trafficking or drug trafficking or oil smuggling, 
whatever it is, how they are actually running an economy, how 
they are linking to the formal financial system. Once we know 
that, we have a set of tools that begin to shut that down and 
begin to restrict their ability to raise and move money.
    Senator Perdue. Thank you.
    Mr. Ambassador, I have a question about Europe. How do we 
coordinate with our allies in Europe? We see a lot of activity 
over there. We know that Brussels is a haven for terrorist 
activity and so forth, and is being exported to this country 
through Europe. General Breedlove even said that Putin is 
involved with the radicalization and the weaponization of the 
refugee problem in Eastern Europe.
    What can we do, and how would you advise the incoming 
administration to coordinate with our allies in Europe to fight 
this?
    Ambassador Benjamin. Our coordination with our European 
partners tends to be pretty good. Our problem is the 
coordination within Europe itself between different European 
partners. Intelligence gathering is not a European--that is, 
EU--competency. It is a national government one. And for that 
reason, and because of the nature of intelligence work, many of 
the services are not fully trusting in one another. In some 
ways, they are still more in the Cold War era than we are at 
this point. Europe never had the 9/11 galvanizing experience 
that we did, and as a result it has never spent the money on 
law enforcement, on intelligence, on border controls that we 
have.
    I think that the new administration should engage 
vigorously with the Europeans and push them hard, and this 
needs to be done at a very high level to integrate more 
effectively. I know the current administration has pushed this 
issue and has offered them various kinds of technical 
assistance so that they can integrate their many different 
databases more effectively. But I have to tell you, it is going 
to be rough sledding because Europe has an awful lot of issues 
on its agenda right now. But I do think that they need to do a 
better job, and they really need to increase the resources 
devoted to this problem.
    Let me just add, though, that perhaps the issue that is 
most dangerous of all for Europe right now is the migration 
one, not only because of the domestic problems it creates but 
also because it is politically tearing apart the EU. So it 
seems to me that as part of a broader strategy to deal with 
this, the United States should take a leadership role and try 
to help Europe with the migration crisis in terms of a global 
approach to dividing up extremely needy people who have been 
the victims of a horrible war, resettling them around the globe 
as necessary, because until that is done, I fear we are going 
to be in crisis management for a very long time.
    Senator Perdue. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    And thank you both for your service and for your testimony.
    As the new year approaches, we find ourselves 15 years 
removed from September 11th, 13 years from the invasion of 
Afghanistan and Iraq, five years from the turmoil of the Arab 
Spring, two years from Baghdadi's declaration of a caliphate, 
and conflict ranges across the Middle East and North Africa, 
horrible civil war in Syria, failing states in Libya and Yemen, 
sectarianism hardening. So we should not be surprised that 
violent extremism flourishes in such conditions, or that we are 
not immune from the blowback.
    By the end of last year, more than 31,000 people from at 
least 86 countries have migrated to ISIL-controlled lands, 
testifying to the global appeal of their extremist ideology. It 
is in the backdrop that I look at and I appreciate this hearing 
because it is a time of inflection and reflection to think 
about what we have not done or have not achieved, or what we 
have done well but maybe what we should be doing as well.
    Several years ago I made a speech, well before this time, 
that if we did not listen to the Arab street, we would live 
with the consequences of it. What did I mean by that? We had an 
overwhelming population incredibly young and incredibly poor, 
with no aspirations of seeing anything in the future that would 
be better, governance and governments not taking care of their 
own people, and economic conditions that would not create the 
opportunity for people to realize their hopes and dreams and 
aspirations. Therefore, you go and listen to the suggestions 
that glorification comes in dying, and you get pieces of gold 
and other enhancements as a result.
    For those of us in the Western world who live in 
democracies and what-not, we find it incredibly hard to believe 
that someone would succumb to that belief. But when you are 
desperate, it is amazing what can happen.
    So my question is, yes, we are doing--and I have supported 
all of the efforts to deal with the military, intelligence, and 
other elements, but that almost seems ripe for a perpetual war.
    So the question in my mind is, should we not be equally 
addressing the questions of the economic underpinnings that 
create masses to be disenfranchised to the point that their 
purposes can be perverted? Should we not be focusing more on 
governance as a way to move towards better economies? Is that 
not also in our national interest and the national security of 
the United States? And should we not be more significantly, in 
a broad-based collaborative network way, be dealing in the 
social media realm to counteract? And I think both of you have 
referred to that. But how do we do that more extensively, more 
collectively, more powerfully than we are doing right now?
    And lastly--so I will put all three questions out there and 
then give the rest of the time for you to answer. I think, 
Ambassador Benjamin, you said that terrorism and ISIS have 
their own political economy. And I would say to you and Mr. 
Zarate, well, how do we attack that political economy 
successfully? What regulatory impediments could Congress fix 
that would allow Treasury and State to more effectively employ 
the tool of financial sanctions in our counter-terrorism 
efforts towards that economy?
    So if you could comment on those three things, I would be 
appreciative.
    Ambassador Benjamin. Juan has graciously let me lead on 
this.
    So, on your broad point of the chaos in the broader Middle 
East, I am in full agreement and I think that we face, as I 
said in my testimony--and it is in the written record--a very, 
very long-term challenge that will be very difficult to escape. 
We are talking about historical changes on a scale that have 
not been seen certainly since the end of World War I, the 
period of colonization, the end of the caliphate, and in many 
ways on a socio-economic scale that is simply unprecedented.
    Senator Menendez. But if we do not start down that 
journey--I admit that it is long. But if we do not start down 
that journey, then we are destined to ultimately live with the 
consequences.
    Ambassador Benjamin. I fully agree. I think that this is 
the moment from a global perspective that requires an enormous 
amount of American leadership and that is going to bring 
together the wealthy countries of the West, the Gulf, and 
others to begin to incentivize good governance and better 
economic institutions and arrangements in this region. I think 
it is going to be extremely difficult, but I think we should do 
it. It is going to cost an awful lot of money, and I guess I 
question whether or not, in a period of America First, we are 
prepared to do something like that. But that would certainly be 
my recommendation to any incoming administration.
    Mr. Zarate. Senator, you are always insightful and 
certainly ahead of the curve, and I think you have been on this 
as well.
    Senator Menendez. You can stop there. [Laughter.]
    The Chairman. And his time is up, too. [Laughter.]
    Senator Menendez. It is the Cuban-American thing. 
[Laughter.]
    Mr. Zarate. I do think we have to realize that this is a 
generational struggle, and it has all of the components that 
you have described and that Dan and I have put in our 
testimony. We have to realize that the nature has changed.
    To Senator Perdue's point, we are at war. It looks very 
different than past wars. It is not going to have a neat 
expiration date. And frankly, our European partners have 
realized over time that they are at war. The French president 
and prime minister have talked about this in those terms.
    So we do have to realize that this is a war, that it is 
generational, and that you do have to employ all elements of 
national and international power.
    In terms of governance, you are absolutely right. There are 
short-term dimensions. You have to fill voids so that these 
groups do not take hold.
    One of the things I worry about in Libya, for example, is 
that the new council, the Mujahedeen council in Derna is now 
filled with al Qaeda folks. Al Qaeda has grown much smarter as 
they are reemerging. They have relabeled themselves in Syria as 
a way of legitimizing themselves and distancing themselves from 
the al Qaeda brand, very smartly.
    So I worry that in the short term, if you do not fill the 
void, these actors are very smart and they will adapt and take 
advantage. In the long term, you have to have a solution to 
these questions of identity, of aspiration, and there is no 
question that there is a crisis of identity in many parts of 
the Muslim world and with Muslim communities.
    Fortunately, I do not think that has taken hold in the 
United States, and one of the key elements of countering 
violent extremism in the homeland is making sure that the 
ideology never has real purchase or longevity in the homeland. 
I think if we can get to the point where we begin to look like 
Londonistan or Molenbeek, we have got a real problem. We are 
not there by any stretch, and I think we have to make sure that 
we never get there.
    But I could not agree more that the governance issues in 
the context of a movement that really is trying to reshape maps 
and history--this is a movement--is trying to give identity and 
shape in a very convoluted and dangerous environment, and we 
have got to shape the environment.
    Senator Menendez. My time has expired. But if you can in a 
separate setting give me ideas on regulatory changes that would 
make our financial sanctions more effective, I would appreciate 
it.
    Thank you, Mr. Chairman.
    The Chairman. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, both of you, for being here today and sharing 
your expertise.
    Ambassador, just to follow up on something, you made a 
comment to Senator Perdue about talking about the intelligence 
situation in the EU and Europe in general. It is pretty clear 
that when our focus shifted to the Middle East, terrorism in 
the Middle East, that we started shifting our intel assets and 
resources from Europe and obviously have not built up to where 
we were at in the midst of the Cold War.
    What level are we in terms of appropriate intelligence 
responses, assets and build-up in Europe today to understand 
the threat from Russia and others in the EU, in Europe in 
general?
    Ambassador Benjamin. Well, I confess I do not think I am 
entirely qualified to answer that, not being from the 
intelligence community. My concern was less with the staffing 
of U.S. people in Europe or on the staffs in the various 
agencies here than it was with what we were getting from our 
liaison partners, because liaison partnerships remain 
absolutely vital.
    But I will say that one of the great challenges facing the 
intelligence community today, of course, is doing all of these 
different things. You mentioned Russia, and it is really tough 
when you are dealing with the potential of an imminent 
terrorist threat to also be resourcing people who are looking 
at long-term trends in Russia as well.
    Senator Gardner. But would you agree that we cannot simply 
rely on European nations to provide us both an intelligence 
look into Russia and the Middle East because you have the 
north/south split for----
    Ambassador Benjamin. Well, we do not rely on them for 
either of those things. We rely on our own services for that 
and for others who are in the region. We rely on liaison 
services in the Middle East heavily for counter-terrorism 
information. Every intelligence operation worth its salt relies 
on a combination of its own resources as well as those of its 
partner services. No one can do it all by themselves. And, 
quite frankly, in the Middle East, for example, we just do not 
have the kind of personnel who can do that work. We are really 
challenged in this period, there is no question about it.
    Senator Gardner. Thank you.
    Mr. Zarate, a couple of questions for you.
    If you look at Southeast Asia--we talk a lot about the 
Middle East, but if you look at Southeast Asia, 240 million 
people, the population, some of the largest Muslim-majority 
countries in the world, 15 percent of the Muslim population in 
terms of the Sunni Muslim population, 40 percent of Southeast 
Asia's overall population, what do you see happening right now 
in Southeast Asia that is of concern to U.S. interests in the 
region, how that growth of terrorism is occurring, and the 
spread and recruitment taking place in Southeast Asia?
    Mr. Zarate. Great question, Senator, because I think a few 
years ago we certainly saw Southeast Asia as a success story in 
terms of our ability to contain the growth of the terrorism 
threat, even the growth of the ideology, even though it was 
still present and we saw attacks, as we saw in Bali and other 
places in Southeast Asia.
    I think one of the dangerous things that we have seen--and 
part of this is the reanimation that ISIS has provided to the 
jihadi networks that have existed in the past--is a reanimation 
of operational cells in Southeast Asia that are tying back to 
groups like ISIS, or even al Qaeda. They are regenerating 
themselves after having been suppressed or deterred for some 
time. So I think that is the first order of battle, and you 
have seen attacks emerge.
    Secondly, I think the ideology has had a bit of a 
renaissance, unfortunately. You have seen rallies, for example, 
in Indonesia, mass rallies where the violent Islamic extremist 
ideology seems to have grown a bit more popular, and I think 
that has implications politically, and that we have got to 
watch very carefully because to the extent that Salafi 
politicians begin to take hold in Southeast Asia, that begins 
to affect policy and dynamics and our ability to work with 
them, perhaps.
    Finally, I think the diaspora communities are of concern. 
So, for example, in Singapore they have worried often about, 
for example, the Bangladeshis that are radicalized. They 
recently arrested a whole slew of individuals. So diaspora 
communities have proven problematic at times in these areas.
    So those are three concerns that I have looking at the 
environment currently.
    Senator Gardner. To follow up on that question, though, 
have we done enough in terms of our prioritization on counter-
terrorism assistance to them to help build their capabilities 
to monitor, to track, and to prevent terrorism recruitment, to 
know who is coming back in from Syria? And do we have an 
overall high enough priority on counterterrorism efforts in 
Southeast Asia right now? Have we prioritized it decently 
enough?
    Mr. Zarate. To be honest, I have not seen current resource 
levels and the rest. But I would say that one of the successes 
in Southeast Asia that we can build on and that has really been 
a success is the sharing of labor around this intelligence 
work. I mean, one of the great things in Southeast Asia is that 
you have a partner and five eyes in the Australians, who are 
present, who have just as much if not more interest than we do 
in terms of watching what is happening, capable partners like 
the Singaporeans who are very committed to stability in the 
region.
    So these are all partners that are devoting resources and 
working closely together and that we are trying to amplify.
    One word of caution, though, and this is where counter-
terrorism fits so importantly into our foreign policy. Our 
partners have to want to work with us, and what we have seen 
currently with the political maneuvering in Manila with the 
removal potentially of U.S. Special Forces in the south, it is 
troubling because that partnership has been incredibly 
important to diminishing the reach of Abu Sayyaf, the Moro 
Islamic Liberation Front, both of which have flirted with ISIS 
support. So how we manage the foreign policy there begins to 
impact very directly what we can do with our partnership.
    Senator Gardner. And I, too, would like to follow up with 
you a little bit on how we can be more effective in a different 
region of the world, and that is our sanctions in North Korea, 
against individuals in North Korea. Victor Cha and Ambassador 
Galluci just issued a report talking about the importance of 
identifying individuals, isolating them from the worldwide 
financial systems, and how we can be more effective in 
targeting the ways that dollars are getting back into the North 
Korean nuclear regime.
    So, thank you.
    The Chairman. Senator Kaine?
    Mr. Zarate. May I just make one quick follow-up, Senator? 
Just to tie back to something that Senator Cardin was inquiring 
about before.
    If we went back to 2003-2004, we probably, if you polled a 
lot of counter-terrorism experts, would have said that 
Southeast Asia was one of the true crisis regions and that we 
would worry about the fundamental stability of Indonesia.
    One of our success stories, I would say, in the capacity 
building area has been in Indonesia. We are fortunate that it 
is a large and very vibrant democracy and we had very, very 
effective partners, particularly in the high-end policing area, 
but also in the judiciary there. So I think that while there 
are occasionally worrisome signs that we should not in any way 
be complacent about, this is a demonstration of what you can do 
if you invest in a partner country.
    Senator Gardner. But I do think we have to be careful 
because in conversations with the Singapore officials, they 
talk about the emergence of a hardline element in Indonesia and 
recruitment obviously in Indonesia's national language, and the 
Malay language that is increasing. So I agree with you, but we 
cannot be complacent because there seems to be a larger element 
that is rising.
    The Chairman. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman. Thank you for your 
kind comments earlier. I am energized to be back with good 
colleagues here, and this hearing is a good explanation of why.
    Two things happened last week during our Thanksgiving 
recess that I thought were interesting and a close connection. 
On the 24th of November, Thanksgiving Day, we had the first 
American combat death in Syria, Chief Petty Officer Scott 
Dayton of Virginia, from Woodbridge here in Northern Virginia, 
who was based out of Virginia Beach who was a bomb disposal 
expert who was killed about 30 miles from Raqqa.
    And second, on the 27th there were news stories about the 
President's decision to send to Congress a notice under the War 
Powers Resolution to basically say that he wants to use the 9/
11 authorization passed in 2001 to expand activities against Al 
Shabaab in Somalia.
    Senator Perdue talked about world war, and Senator Menendez 
talked about perpetual war, and both of these instances 
occurring a couple of days from each other, a combat death in 
Syria and actions against an organization that did not start 
until two years after the attacks of 9/11, expansion of 
military kinetic activity against Al-Shabaab, which did not 
exist until 2006 or 2007. I think it demonstrates the mutating 
scope of the war.
    I have raised questions about the legality of the war 
pursuant to the authorization.
    But setting aside those questions, we are 15 years after an 
authorization that is being used now--I think it has been used 
37 times by Presidents Obama and Bush to justify kinetic action 
in 13 different nations. I do think it is a point of reflection 
and inflection when you bring in a new Congress, when you bring 
in a new administration, to assess what is going on and 
continuing to trace back all of these kinetic activities in 13 
different nations to the perpetrators of the 9/11 attack. I 
think we all recognize that there is some artifice there, and 
it is a good moment to do that reflection or inflection.
    Each of you have testified--the title here is ``The Future 
of Counter-Terrorism Strategy,'' but each of you have testified 
to some degree that the counter-terrorism strategy has to be 
part of a larger foreign policy strategy. One of the great 
things about this committee is we have a lot of people on the 
committee who really want to think about bigger-picture 
strategic questions.
    So I would love it if each of you could talk about counter-
terrorism strategy as part of a larger strategy. What would 
your advice to the committee be at this moment of inflection, 
or to a new administration at this moment of inflection of how 
we ought to see counter-terrorism strategy fitting into broader 
strategic questions? What are the broader strategic questions 
that we ought to be trying to answer to determine what the 
right counter-terrorism strategy is?
    Mr. Zarate. Senator, if I could just address the AUMF 
question, because you have been leading on this for a long time 
and speaking about it, I think rightly, because it is an 
important legal policy and moral question as to how we define 
the war and where we use targeted killing and other tools.
    I think a key question in the context of the AUMF--and then 
it relates to the broader question of our future strategy--is 
how we define the prevention of the manifestation of this 
movement in its various forms, and you have articulated that it 
has manifested around the world and especially where there is a 
lack of governance and vacuums of authority.
    At what point--how do we define prevention? This 
administration has defined that in a variety of ways, but it 
has redefined the sense of imminence to allow for the use of 
targeted killings in a sooner and a more prolific way. I agree 
with that, but it is an important question because it goes to 
the heart of what the purpose of the AUMF is. The original AUMF 
in 2001 was not only related back to the 9/11 attacks but also 
has a provision in it, as you know, with respect to prevention 
of future attacks from those same groups. So that question of 
prevention is critical.
    The second is labeling. How do you label these groups as 
they redefine themselves, as they morph, as they shift gears, 
and frankly as they redefine the map itself? ISIS has erased 
the border between Iraq and Syria. If you look at the map, it 
is hard to even figure out what you are looking at sometimes. 
So those traditional authorities, the authorities that Dan 
used, for example, for labeling terrorist organizations, are in 
some ways outdated because the groups are adapting around this 
in a dynamic way.
    So I just wanted to comment on that because I think your 
point is really important.
    Three things, I think, are important long term for this 
committee. One is what is the nature of partnership? I think we 
have got great models in terms of how we create regional 
alliances to deal with the manifestation of these issues, in 
the trans-Sahel with the French taking the lead, in East Africa 
with the Kenyans, the African Union, the Ethiopians taking the 
lead in supporting Somalis.
    I think also this question of how we support sub-state 
actors and alliances at the tribal, at the local level, the 
whole question of the Kurdish support is critical. So how we 
define that is really important, and I think this committee has 
a key role to play in defining that.
    How we think about soft power and the use of tools. Again, 
we have talked about this in the context of countering violent 
extremism, but how we think about capacity building, how we 
think about long-term issues of governance.
    And then finally, where do we see America playing a role in 
all of these regions and conflicts. What is America's role in 
shaping the battlefield? We do not want to occupy, of course, 
every place there is a conflict, and we do not want American 
service members dying in these places. At the same time, we 
have to be present, and as I say in my testimony, the laws of 
physics apply, and American leadership is still critical. So 
what does that mean in a more difficult, diverse, global 
counter-terrorism environment, especially when we do not have 
reliable partners in places like Yemen, Libya, and Syria?
    Ambassador Benjamin. I think it is illustrative that Juan 
and I are in very broad agreement, because although the issue 
of terrorism remains a highly politicized one in the nation, I 
think in the mainstream on both sides of the aisle there is 
broad agreement about a lot of the things that are necessary. 
And I, too, would focus on this being a moment when we think 
hard about what it means to be engaged around the world on a 
variety of different levels.
    I would strongly agree with Juan, we need to redouble and 
redouble again our capacity building efforts, and not so we 
create a lot of empowered militaries under dictatorships who 
will then repress their populaces, because that is a certain 
guarantee for radicalization, but rather that we need to have 
broad-based engagement, much greater engagement on the civilian 
side, coupled with insistence on compliance with the rule of 
law, because that is how societies will deal with the 
grievances in their midst that drive radicalization.
    I think at the moment we spend an enormous amount of money 
on our military, and rightly so, and we are going to need to 
spend a good deal more money on promoting good governance while 
also promoting those in situations within societies that deal 
with terrorism at the tactical level--police, judiciary, 
prisons--and, of course, the many different elements in society 
that deal with countering violent extremism.
    I also think that even in those countries that we do not 
need to invest in, we need a deeper engagement in terms of the 
partnerships that we build. We need a great deal of help from 
the Europeans in dealing with societies at risk in Africa, in 
South Asia, in any number of different places. We have some 
fledgling institutions to work with; for example, the Global 
Counter-Terrorism Forum, the GCTF, which is an offspring of 
that which funds CVE programs around the world, but they are 
really small. We are not going to get from here to there if we 
continue to be incremental in the smallest sense of the word.
    Senator Gardner. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you for being here today.
    I am glad that we have spent a good amount of time here 
talking about the roots of extremism. We tend to spend most of 
our time talking about how to combat extremism after the fact, 
and I thank you for your comments on this.
    Broadly, there are a number of different dynamics at play 
when you think about how somebody becomes radicalized. There is 
an economic dynamic. There is a political dynamic. There is a 
religious dynamic. I think we are pretty good at talking about 
the political dynamic, which probably over the last 10 years we 
have exacerbated as a country. We are pretty good at talking 
about the economic dynamic, which we have probably underfunded. 
But we are pretty terrible at talking about the religious 
dynamic. It is one that I would argue we cannot afford to 
ignore any longer.
    Since 1979, there has been a fight on in the Middle East, 
expanded all across the globe, as to what the true nature of 
Islam is going to be. In the last 10 years the Gulf states, the 
Saudis in particular, have put more and more money into a very 
conservative, very intolerant brand of the religion which has 
formed the basis, the foundation for these extremist groups. 
Often the Salafi textbooks are just taken word for word and 
turned into recruitment materials for some of these 
organizations.
    If you go to the Balkans today, it looks very different 
than it did 10 years ago. There are women being paid to wear 
head coverings. There are more mosques preaching that brand of 
Islam than ever before.
    So I guess I just sort of pose this as a question to you. 
We have not talked about it at all here today. And yet without 
that religious dynamic, I do not know that we can tell the same 
story about the radicalization of peoples throughout the world 
that we can today.
    So just help us understand how we intersect with this 
discussion. Should we be talking about it? And if we should, 
how do we intersect here? I think it is a very uncomfortable 
topic, for good reasons, right? The United States should not be 
weighing in, in a definitive sense, as to what the true or 
right version of Islam is, but we cannot ignore the fact that 
if we let the current dynamic play out as it is, it makes it 
really hard to solve this problem simply with political and 
economic responses.
    Mr. Zarate. Senator, you hit the nail on the head in terms 
of the complexity of dealing with this violent Islamic 
extremist ideology and how it is manifested and embedded. I 
will tell you that I spent countless hours trying to figure out 
how you deal with what is a movement that is warping tenets of 
one of the world's great religions to reshape the sense of 
Muslim identity in the 21st century when the U.S. Government is 
neither placed nor expert nor by the First Amendment postured 
or legally enabled to do anything in that realm. This is why 
the analogies to the Cold War battle ideologically is a bit 
off. It is a little bit of apples and oranges.
    The Cold War analogy was two basically Western ideologies 
that were competing in the marketplace of politics and 
economics, and certainly in the battle place of ideas, but it 
was largely in a Western context, and it certainly was not 
religious. Obviously, the Soviets were trying to excise 
religion from their societies.
    But this is very different because the animating feature of 
this movement is to try to pull on and shape that very 
religious identity. So they try to use schools and texts to 
their advantage. You have seen ISIS develop schools to try to 
brainwash the next generation of radicals. They have recruited 
women to try to create a sense of family and to create a sense 
of what home life in an Islamic caliphate looks like, all with 
the sense that in their mind a true Muslim society, a true 
Muslim believer, has to subscribe to their vision of the world, 
has to subscribe to their dictates.
    So I could not agree more, that is a key issue.
    Senator Murphy. But that does not happen in a vacuum. I 
think we often just focus on what ISIS is doing. That does not 
happen in a vacuum. It happens upon a foundation that is funded 
in part by allies of the United States.
    Mr. Zarate. Yes, and it is not just on the Sunni side 
either. As I mentioned in my testimony, it is also on the Shia 
side, right? So you mentioned 1979. It was the siege of Mecca. 
It was also the Iranian revolution, and it was a key moment in 
the context of where this ideology and the clash of violent 
Islamic extremism was headed, and we are seeing the fruits of 
that now, especially with the proxy battles.
    So you are absolutely right, this is why we have to rely so 
heavily on Muslim majority countries, credible voices, not just 
clerics but also key influencers in Muslim communities. It is 
why in the report I mentioned from CSIS we focus so heavily on 
funding and enabling non-governmental actors to actually have a 
central role in countering the ideology and offering 
alternatives; and, as Dan said, being a part of intervention 
strategies in places like Minneapolis or Boston or L.A.
    So it actually forces you to rethink what the model is 
because it cannot be that the U.S. Government is absent, but it 
cannot be that the U.S. Government is the voice. So what does 
that then look like? It means you have to have partners that 
are non-traditional that begin to counter the ideology and 
shape what it means to be Muslim in the 21st century, and we 
cannot be shy about it. Muslim Americans know that they are 
under assault. ISIS is trying to recruit Somali Americans. They 
are trying to get Muslim Americans to kill fellow citizens. 
They know they are under assault. They need U.S. Government 
help, but they also need to be seen as enablers and not 
necessarily as just victims, or even as threats.
    Ambassador Benjamin. It is a big issue, Senator, and this 
is, in a sense, where I got on, because my first book was 
called The Age of Sacred Terror, and it was about the rise of 
religious extremism especially in Islam, but in all the major 
faiths, where we have seen growing tendencies to violence.
    I think Juan gets it right. It is a real problem for us to 
be a part of this dialogue. It is really in many ways a dispute 
within Islam. We need to find those partners with whom we can 
work who are, in our view, promoting a positive message. We 
have an enormous problem with the country or countries that 
have put the most money into propagating extremism because 
those are also some of our very, very closest intelligence 
partners, and they provide us with tactical intelligence that 
saves lives. So it is a paradox, and those of us who have tried 
to push this in the government have come up against hard 
barriers because of that problem.
    I understand that we are short on time, so I would be happy 
to take this up with you later.
    Senator Murphy. Thank you.
    The Chairman. Thank you. Thank you so much.
    Senator Coons?
    Senator Coons. Thank you. I would like to thank the 
Chairman, the ranking member, and the panel. You have given 
tremendous testimony today.
    I know my time is short, as well as yours likely is, so let 
me just follow up, if I could, on the point you made, Mr. 
Zarate, on the recent CSIS report that you referenced.
    I am very interested in your calling for the next 
administration to have an assistant to the president who would 
expressly be focused on building public-private partnerships 
and countering violent extremism goals.
    We have Hollywood. We have some of the best TV shows and 
online content in the world. In many ways American companies 
and content creators invented modern social media which ISIS 
and others have turned to perverted ends.
    How would you imagine us most effectively using this new 
resource and role to engage in countering extremism here at 
home? And how can we better engage the more than 3 million 
American Muslims who, as you said, are in some ways really 
caught in the middle between this global contest over the 
future identity of Islam and this concern by many Americans 
about our security at home? And how can we better reinforce 
that the integration of American Muslims is the best almost in 
any Western society outside the Muslim world?
    Mr. Zarate. Thank you, Senator. What you have just 
described is precisely why you need someone, be it in the White 
House or in some other structure, that has not only the mandate 
but also the authority to coordinate what is happening 
internationally as well as domestically on these issues.
    I think one of the challenges that we have seen in the 
space is that what we can do and influence abroad often cannot 
get translated domestically for good legal reasons. But you do 
need somebody who is able to coordinate what is happening 
internationally, connecting the countering violent extremism 
mission to our broader policy goals to what we are trying to do 
domestically, which is largely to enable Muslim American 
communities to not only defend themselves against this ideology 
but to enable them to be proactive participants in dealing with 
the threat.
    This idea of intervention models, community-led 
intervention models is an important one. That has to be done 
with the help of the Department of Justice, the FBI, the 
Department of Homeland Security, but that cannot be set in 
isolation from what the State Department does or the 
intelligence community does.
    So the idea here is you have got to have somebody that is 
concentrated on this issue, concentrated on integrating it 
internally, and then, as you said, Senator, figuring out what 
is the right way of leveraging the non-state elements of our 
power to actually influence, and that is technology companies, 
media companies, the artistry fields, singers, songwriters, et 
cetera, entrepreneurs, into a broader campaign to think about 
how we have reshaped this environment. You need somebody who is 
concentrating on that full time, and we often do not see that. 
That is why that recommendation is in the report.
    Senator Coons. And I would argue that to the extent elected 
officials at the Federal, state and local levels embrace and 
engage with and represent the American Muslim community, the 
more likely we are to be successful. And to the extent there 
are proposals that marginalize them or suggest that somehow 
they are not fully part of the American community, I think that 
makes us less safe.
    Mr. Benjamin, if I might, we have spent an enormous amount 
of money trying to rebuild and stabilize countries like Iraq or 
Afghanistan during and post-conflict. You have talked about the 
importance of our being engaged in countries that have been 
plagued by terrorism. What should we be doing now to prepare 
for the reconstruction and rebuilding that is going to be 
required in a number of states, not just those but others--
Somalia, Nigeria--that are really suffering a scourge of 
terrorism and where they are fragile or failed?
    Ambassador Benjamin. If I could just begin by making one 
quick note on the CVE issue, I would just point out that people 
have been trying to think about how to leverage American 
culture to de-radicalize or to fend off radicalization in lots 
of different contexts for a long time. While I think that the 
vast majority of the Muslim world probably enjoys a lot of the 
products that we send them, the very small number of people who 
are radicalized probably view it as deeply offensive, 
pornographic and the like. So this is a very difficult issue, 
and it is not clear to me that we can pick winners and losers, 
as we cannot in industrial policy, for example.
    On the very important issue you raised, there is an 
enormous amount of donor fatigue out there already, and yet if 
there is not investment in the areas of Iraq that have been 
destroyed by ISIS and destroyed by the battle to retake it, if 
there is not soon a ceasefire in Yemen and reconstruction 
there, we will be paying a price for a long time because 
terrorist groups love these civil conflicts. They are the 
breeding grounds for the next generation of extremists.
    And I would add that we were talking about trouble spots 
ahead before. I think this is just an enormous question mark 
for the future because of the declining economy combined with 
repression and no voice for moderate Muslims who today do not 
believe in the violence but who find that they are really 
excluded from the politics of their own country.
    Senator Coons. I want to thank both of you. This has been a 
very informative hearing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Risch?
    Senator Risch. Mr. Benjamin, you made reference to, in the 
context of this hearing, the migration issues regarding Europe. 
I would like to drill down a little bit into that. It is 
incredibly frustrating when you look at this. Europe will never 
be the same after what has happened over the last 24 months. 
Europe is never going to be the same. And for that matter, it 
has not shown any signs of letting up. You get these waves that 
come. It was not that long ago when people would take up arms, 
there was an invasion, they would repel them and send them 
back. That is not happening. Indeed, a good share of the 
population in Europe is very welcoming, and it is causing 
friction between the countries there.
    One of the things I found that was really interesting was 
that, in addition to these huge numbers of people that are 
coming that are indeed victims of war-torn countries and are 
true refugees in that sense, mixed in with that, the people who 
are simply opportunists, economic opportunists, are mixing 
themselves in there, not intending to harm anyone or anything 
else. They just want to do what we all want to do, and that is 
do better for our families and for ourselves.
    As a result of that, the NGOs I have talked to who deal in 
this and who really want to help people who are refugees are 
very frustrated by the fact that they are getting this mixture, 
and the result of that is the numbers are just overwhelming. 
Our minds cannot get around the kind of numbers we are talking 
about. Our human minds are not designed to do that. You look 
around this room. If you try to think about the people in this 
room and then go to a thousand people or a million people or a 
billion people--there are 7 billion on the face of this earth, 
all of whom have a view that if things are not good, they are 
going to go somewhere where it is better.
    I mean, this is something that I do not know what you do. I 
hear the Pollyanna kind of speeches about, oh, what we need to 
do is stabilize all these countries, we need to get them 
governing, they need jobs and they need hope, but that is not 
happening, okay? And there is no magical formula for that to 
happen. Certainly the United States cannot do this. As 
egotistical as we are in thinking we can control these things, 
we cannot. I mean, it is just huge.
    Give me some hope here. Where is this thing going? Mr. 
Benjamin, you raised the problem. You take a run at it first, 
and then we will give Mr. Zarate a shot at it.
    Ambassador Benjamin. Well, Senator, I think you have made 
me hopeless. No.
    So there is no question that large-scale migration from 
either war-torn countries or underdeveloped countries is one of 
the greatest challenges that we face, and certainly this is 
tearing Europe apart because of the way that it has translated 
into the politics of the continent. So we are not talking about 
the terrorism dimension which is also real because they do not 
have the kind of border controls that we have.
    I have some sympathy with your argument about the 
challenges of economic migrants. International law does allow 
us to distinguish between these two, and we are going to have 
to continue to do so, otherwise states will simply be 
overwhelmed, and that is why it is so important to distinguish 
and find those who truly have been forced to flee from their 
homes because of conflict.
    I do think, though, coming back to what we were talking 
about before with Senator Kaine and with Senator Murphy, this 
is why deeper engagement with a lot of these countries, in 
concert with Western Europe, which faces the most critical 
threat, but also with wealthy countries in the Gulf and the Far 
East, there really has to be a concerted effort to increase 
development in these places. We have to look at what we can do 
to underwrite the availability of greater capital for 
borrowing.
    Look, it is a paradoxical situation because we are in the 
period of history that has seen the most extraordinary 
reduction in poverty globally in history, with something like 
500 million people coming out of poverty in the last decade or 
two. So it is possible, but it is going to take a level of 
coordination among governments that we have not achieved 
before, and I do not see any better way to do it. 
Unfortunately, we are going to have to continue to insist on 
the distinction between refugees from conflict and refugees 
from economic privation.
    Senator Risch. I would appreciate your thoughts, Mr. 
Zarate.
    Mr. Zarate. Senator, I do not want to add to the sense of 
dread or pessimism, but one other factor to consider is these 
migrant flows are creating new way stations and flows of people 
that are allowing a variety of groups--criminal groups, 
terrorist groups--to take advantage of these people. So you 
have seen, for example, these way stations appear in West 
Africa or North Africa, where human trafficking results from 
the flow of people trying to head into Europe. So you have the 
immediate problem of just pure exploitation of people and the 
threats that emerge from these flows.
    I would say, look, if we try to solve everything at once, 
we are not going to solve anything. So one way of thinking 
about this is how do we solve the immediate problem of 
distribution of refugees as they flow out of the conflict 
zones, and especially if the conflicts are not going to be 
resolved? But how do we manage the refugee camps so the refugee 
camps themselves do not become long-term liabilities for the 
international community?
    I think we have to pay a lot of attention to Lebanon, to 
Turkey, to Jordan, which have already absorbed enormous numbers 
of refugees and have tried to incorporate them. I think 
starting with what is right in front of us first, how do we 
deal with the refugee camps and the distribution currently. It 
is probably the good, right first step, and it is not solving 
all of the refugee problems around the world, but solving that 
may be a good first step to getting at some of these longer-
term problems.
    Senator Risch. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I might add, just on that note, that continuing to engage 
with Egypt--I mean, if Egypt were to fail, what we have seen as 
it relates to the issues in Western Europe would be exacerbated 
multi-fold. That is an issue where our national interests come 
up against our national values; it matters a great deal.
    Anyway, with that, Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you to both of our panelists for being here. I have 
to especially call out Ambassador Benjamin because he is from 
New Hampshire. Thank you for your leadership at the Dickey 
Center at Dartmouth.
    I will tell you especially for the good work that is going 
on there with students, I had an intern, Morgan Sandhu, who 
helped conduct a national study on women's access to health 
care in Kosovo, and she was very impressive. So I very much 
appreciate what you are doing there.
    I just want to pick up very quickly, because I had not been 
thinking about it as a question, but on something you just 
said, Mr. Zarate, and that is on the camps in Jordan and 
Lebanon and Turkey and whether we are doing enough there to 
address those camps. My assessment, based on everything we have 
heard in this committee and other places, is that we are not 
and that we ought to be doing much more there. Would you agree 
with that?
    Mr. Zarate. I would. I think that is a source of real 
threat and instability for those countries, and obviously for 
the people that are living there. So I think that as a first 
order of concern has to be an area of focus for us.
    Senator Shaheen. I want to go back to some of the questions 
that I understand Senator Cardin was raising about budgeting 
and what we fund and what we do not fund, especially given that 
particular issue. I certainly agree with the assessment that I 
think you made, Ambassador Benjamin, and that you probably 
agree with, Mr. Zarate, about our willingness to fund military 
counter-terrorism operations but not to fund the governance, 
the civilian, the civil society aspect in a way that would help 
us so that we do not have to get into the military operations.
    One of the things that we are about to do is to pass 
another continuing resolution which will limit our ability to 
fund efforts at least from now until the end of March, and I am 
hearing more and more people talking about a year-long 
continuing resolution, which is even more troubling.
    But can I ask you both to speak to what that does to our 
ability to make decisions about supporting efforts on counter-
terrorism, as in so many other areas?
    Ambassador Benjamin, do you want to go first?
    Ambassador Benjamin. Well, you know, it certainly keeps us 
ham-strung since continuing resolutions do not involve plus-
ups. I would just note that, as I stated in my written 
testimony, when we were talking about capacity building and 
CVE.
    So countering violent extremism, which has been a major 
source of discussion in this hearing, is globally completely 
miniscule and represents less than 10 percent of the State 
Department's CT capacity building budget, and that capacity 
building budget is a tiny fraction of what we put into our 
military capacity building.
    Now, obviously, military capacity building is going to be 
more expensive because of the hardware that is involved and the 
numbers of people. But we are sucking the blocks here, and I 
think this is disastrous for our national interests. I know 
there has been skepticism on the Hill at times about states' 
ability to deliver these programs effectively, and I would say 
that both ends of Washington have some justification for being 
upset. I do think that too often at State we look at throughput 
instead of sustained engagement that makes sure that the people 
who are trained stay in the places they are and that they 
continue to be productive and carry out the lessons that we 
have transferred to them or given them.
    At the same time, we are in a constant feedback loop where 
Congress is asking frequently for metrics that show progress in 
particular areas where it cannot be measured. I mean, CVE is 
extraordinarily difficult, and we cannot even get to the point 
where we can develop the programs so we can figure out the 
metrics.
    So there is a vicious circle here, and I think it is time 
that we recognize that things are not getting better while we 
do not spend money. It is just not getting better until we can 
innovate, and there needs to be more room for innovation 
particularly in countering violent extremism and in capacity 
building. A lot of these fragile societies are not going to be 
success stories because of exogenous factors. If your country 
collapses in a civil war, as happened in Yemen, then you are 
going to lose some money, and that is just tough to deal with. 
But we still have to give it, it seems to me, a good try.
    Senator Shaheen. Mr. Zarate, do you have a different 
assessment?
    Mr. Zarate. Senator, I think the other challenge with a 
continuing resolution is twofold. One is the inability to plan 
longer term, and that is incredibly debilitating. We are 
talking about these longer-term problems, problems for State, 
DOD, and others. Also, the question of flexibility, how are 
funds shifted.
    Senator Shaheen. Right.
    Mr. Zarate. This committee knows, and certainly there have 
been prominent former Secretaries of Defense who have been very 
open about the fact that they are more than willing to have 
funds shifted from their budget to do precisely what we are 
talking about, which is to deal with issues of governance and 
to shift funds perhaps to the State Department or others to 
provide that kind of service, to shape the battlefield. Special 
Operations forces talk about that all the time. We have got to 
get ahead of the curve and shape the battlefield, and we are 
not able to do that with constricted budgets, frankly.
    A final point. I think what we budget and what we are able 
to demonstrate, whether it is in the context of CVE, 
governance, or other investments, also spurs others to give. I 
think one of the things we have talked about in CVE is we have 
got to begin to plus-up the funding in the private sector to 
then amplify what is happening in the private sector in terms 
of funding, as well as what is happening with other 
international partners. The same thing goes with refugees, et 
cetera.
    So I think there is a demonstration effect to our 
commitment, and if we do it strategically, you can have a 
multiplier effect.
    Senator Shaheen. Thank you. And the other point that you 
all did not mention but that is very clear is that usually it 
costs us more money when we do continuing resolutions. It does 
not save money; it costs more.
    Thank you, Mr. Chairman.
    The Chairman. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ambassador Benjamin, in your testimony you say that working 
with Russia on Syria's civil war would essentially mean joining 
Assad's campaign to militarily conquer all of those opposed to 
Assad. I do agree with you that that scenario would lead to an 
escalation of the war, but I would be interested in hearing 
your perspective on how we might best work with Russia and work 
with our own regional partners to best push parties to give up 
their maximalist demands and agree to rational compromises.
    Thus far, the position the U.S. has taken is that regime 
change is absolutely necessary, and Assad has said regime 
survival is absolutely necessary. We are at a stalemate that, 
to a certain extent, does drive this war. Those are two non-
negotiable positions that ultimately lead to ever greater 
escalation.
    So I guess my question to you would be where are the areas 
where you think that President-elect Trump, for example, could 
move without compromising the ultimate goal of having 
protection given to the Sunnis within that country? What from 
your perspective makes the most sense in terms of a new regime? 
I do not want to be in a world where President-elect Trump 
announces that he is giving up on regime change without a 
strategy simultaneously that there is a plan in place that then 
gives guarantees to the protection of the rights of the 
majority within the country.
    Could you walk us through that?
    Ambassador Benjamin. Senator, if it were easy, it would 
have been done. You are absolutely right, we are at a 
stalemate. I think we could imagine a deal in which we said 
that in return for a ceasefire and cantonization that would 
preserve the security and the rights of the different groups in 
Syria, that we would be prepared to see Assad stay in power for 
a certain number of years before leaving the scene, and the 
Russians I believe have indicated that they are not prepared to 
accept even that because they want a strong Syrian state. It is 
one of their few allies. It is now their foothold in the 
region. So they have been extremely unhelpful and really 
recalcitrant.
    I hope that if there is a warming with Russia, that the new 
president can leverage his influence with President Putin to 
move towards that direction. Of course, Secretary Kerry has 
tried to also find common ground with the Russians in terms of 
fighting extremists. As we know, right now the Russians are 
primarily just targeting all regime opponents and not ISIS in 
particular. So perhaps there is an opportunity for a new start 
to get towards that diplomatic solution and common cause 
against extremism that everyone has talked about.
    Senator Markey. Do you see any possibility of compromise 
coming from our Gulf partners?
    Ambassador Benjamin. I think that it is going to be a very, 
very tricky situation, and I worry that they will view anything 
that stabilizes the Assad regime as being an unintended signal 
to them to fund Sunni extremists.
    Senator Markey. Is there a deal that could be struck that 
has the Iranians agreeing that they will have no permanent 
military bases inside of Syria, so that we could kind of back 
out both external forces in a way that could ultimately lead to 
some negotiated settlement among Syrians?
    Ambassador Benjamin. The Iranians have always depicted 
their relationship with Syria and then ultimately with the Shia 
community in Lebanon as a matter of the utmost national 
security for them. So I find it hard to imagine that they would 
agree to that, and if they did agree, whether they would abide 
by such an agreement. So we are playing chess in seven 
dimensions right now.
    Senator Markey. I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cardin?
    Senator Cardin. I just wanted to take this time both to 
thank our witnesses and also to make an observation, and I am 
going to ask a couple of questions for the record that I would 
ask you to respond to.
    We just yesterday got the National Defense Authorization 
Act that was filed. It is 3,000-plus pages. I asked the staff 
to go through it, Mr. Chairman, to just give me an idea about 
what is in that bill that would normally come under the 
jurisdiction of the Senate Foreign Relations Committee. They 
just gave me the bullets and a one-line summary that took 12 
single-spaced pages on matters that should be of interest to 
us.
    I want to compliment the Chairman because we did get a lot 
of our input into the National Defense Authorization Act, and I 
think we were successful in keeping a lot of stuff out of it, 
but also a lot of important issues that our committee needs to 
move forward on were included in the bill. So I am not 
complaining but just observing. Regardless of what hat you 
wear, Mr. Chairman, in the next Congress, we need to pass a 
State Department authorization bill. So I look forward to 
working with you as either Chairman or in a different capacity 
to get a State Department authorization bill done.
    But as was pointed out, we have the authority over the 
Authorization of the Use of Military Force, and we have not 
talked much about the military aspects of fighting extremists 
and violent extremism. So I am going to have some questions for 
the record as to how effective you believe our military 
operations have been. It is changed. We are now using drones a 
lot more. Is that working the way it should? We are using 
Special Forces. Should we be doing more Special Forces? Should 
we be doing more ground troops? Because if this committee is 
going to be called upon to look at an Authorization for the Use 
of Military Force, I think we have to get the best advice we 
can as to how the military can, in fact, deal with violent 
extremism.
    I am also going to ask you a question for the record 
dealing with Senator Menendez' point on the financial sanction 
issues as to whether our laws are strong enough and whether our 
partner laws are strong enough to have a coordinated effort to 
try to dry up the financial support for terrorist 
organizations.
    So again, I thank you very much for your testimony.
    Mr. Chairman, I look forward to continuing this discussion.
    The Chairman. Thank you.
    I am going to ask a couple of questions that were not 
asked. Do not feel like anyone has to stay. These are more just 
organizational in nature.
    I know we have a State Department Office of the Coordinator 
for Counter-Terrorism to the Bureau of Counter-Terrorism, which 
in itself sounds very bureaucratic, just the name. I am sure 
that it is not, of course. But could you tell us a little bit 
about how you feel the effectiveness of that has been, and just 
to speed things along so we can get to Senator Shaheen's 
additional questions?
    There has also been established the Global Engagement 
Center to Coordinate Counter-Terror Messaging that many of our 
Gulf allies have created on their own, counter-messaging 
organizations. How are those in effect working together?
    If both of you could respond, I would appreciate it.
    Mr. Zarate. Senator, on the matter of State bureaucracy, 
your recitation of my former title, there is now, and I think 
it is appropriate that there is a counter-terrorism bureau. 
Bureaus are where the central business of the State Department 
is done, and I believe that Secretary Clinton did the right 
thing in creating that bureau.
    I believe the legislation that created originally the 
Office of the Coordinator for Counter-Terrorism, I am told that 
it was Secretary Schultz who insisted that that person have the 
rank of ambassador-at-large so that partner nations would take 
that seriously.
    At the time that the bureau was upgraded from an office 
within the Office of the Secretary to being a bureau, I believe 
that the State Department had a list of different bureaus that 
needed assistant secretaries, and some of them were more 
controversial than others, and therefore the CT Bureau, which I 
guess everyone thought I had an august enough title, was not 
put on the list to become an AS, to become an assistant 
secretary. I am agnostic as to which title is a better one for 
achieving the goals that Secretary Schultz I think wisely 
sought out.
    The Chairman. But has it been effective?
    Mr. Zarate. I think it has made a big difference. I think 
that creating the bureau has made a big difference. The 
problems that I think dog our civilian-side engagement have 
much more to do with overall funding of the State Department 
than with the bureaucracy of the Department itself. So I 
support that, and I think it has also put the Department on a 
trajectory towards building really the kind of personnel, the 
kind of size and staff that is required. So I think it was a 
wise move.
    The Chairman. And the global messaging?
    Mr. Zarate. I will just sort of underscore my initial 
concern that was in the testimony. When I was at the State 
Department, we created the Center for Strategic Counter-
Terrorism Communications that was supposed to be an interagency 
body, was an interagency body. I thought it was doing 
interesting work, very difficult again to find metrics to know 
whether or not it was effective. It ran afoul of all kinds of 
bureaucratic infighting. It has since been subsumed into the 
GEC.
    I am simply skeptical, having been involved in this issue 
now for as long as it has been an issue, that spending as much 
time and effort on messaging as we do is the right way to go. I 
am not persuaded that an Emirati messaging hub is going to be 
received by people who are at risk of radicalization any more 
effectively necessarily than our messaging, for the simple 
reason that they consider those governments to be apostate, 
much as they view us to be infidel.
    So I strongly believe that the future in CVE is in 
community-based efforts that intervene with people who are at 
risk. Again, we cannot cede the entire field, but we should 
recognize that we are going to have a hard time getting through 
to a lot of these people. There is a kind of cognitive closed-
ness, especially as we see recruitment ages go down and down 
and down. Kids are not going to be listening to the kinds of 
messaging we put out, more often than not. That is my view 
after way too many years of having thought about this one.
    Ambassador Benjamin. You are not too jaded, though.
    Just very quickly, Mr. Chairman, on the question about 
internal State Department bureaucratics, I think the biggest 
question is how these issues get ultimately integrated, right? 
And I think the challenge of the bureaucracy within the State 
Department is how do the issues of counter-terrorism get 
integrated with the funding and capacity building from the INL 
shop, which has the vast bulk of those resources in terms of 
partner capacity building. How does it relate to post-conflict 
reconstruction in that office? How does this fit into regional 
strategies?
    I think we did great work here, and the former ambassadors 
with whom I have had the honor to work did their best, no 
doubt. But the question is how does this all get integrated in 
a way that then is effective as a state department and then as 
a country? I do not think any titles or work charts will 
necessarily solve that other than top-level focus on that 
integration. You can have all the work charts you want, but if 
the leadership of the State Department is not focused on 
integrating these issues in a strategic way, it does not 
matter.
    On the Global Engagement Center, I agree and disagree a 
bit. I think we were in a mode where we had to flood the zone. 
We have to flood the zone in terms of messaging. We have got to 
figure out ways of countering various manifestations of the 
threat. We have not talked about this much, but the fact that 
liberal bloggers are getting attacked viciously in Bangladesh 
is a manifestation of this threat. The fact that sacred sites 
have been desecrated and populations extracted from those 
areas, from Afghanistan to the Middle East, Syria, Iraq, that 
is a manifestation of ideology.
    What the Global Engagement Center does not do is think 
imaginatively about how we counter the ideology as it manifests 
in all its forms, not just in the latest tweet but in how it is 
manifesting in ways that are affecting societies and 
communities. That is really lacking in the center.
    The other thing that is lacking, and this is where I agree, 
this cannot be a government-centric-heavy model, and that is 
kind of where we have gone with the Global Engagement Center. I 
think we have got to find ways of empowering all of those 
organic dimensions in the environment, and they are there: ex-
jihadis that are trying to counter the message; the women 
without borders efforts that are trying to counter the 
recruitment of women and families; all sorts of efforts. You 
have some staff here working in East Africa trying to work with 
the Kenyans on some of these organic issues.
    There is a lot out there that could be funded and scaled. 
The Global Engagement Center I think is trying to do some of 
that, but it is very state-centric, and I think we have got to 
move away from that model if we are going to be effective.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Well, thank you for asking that question 
because that was one of my questions. I think we have heard 
people testify before this committee exactly to the points that 
both of you were making, that messaging is a critical part of 
countering violent extremism, but it is more effective when it 
is done not by the U.S. Government in the way that we did 
during the Cold War but more as a grassroots initiative to fund 
and support networks that are responding in ways that are 
effective. I think the challenge is how do we do that better.
    But I want to ask a question about what is happening in 
Syria right now because, as I have listened to the news reports 
over the last couple of days, it appears that Aleppo is about 
to fall to the Assad forces, and that that will then have some 
effect on all of those rebel groups that have been fighting. 
Some of the reports that I have seen suggest that they are not 
interested in reconciling with the regime. They do not trust 
it, and so they are looking at other extremist organizations 
that they can join.
    So if that happens, if Aleppo falls and the Assad forces, 
along with Russia, continue to make gains, what does that do to 
the terrorist groups that are currently operating in Syria? 
What does it do to ISIL? How does that affect what we have been 
seeing in Syria and the Middle East with respect to terrorist 
organizations?
    Mr. Zarate. I think, frankly, it strengthens the hand of 
these extremist organizations for a couple of reasons, Senator. 
One, they become the groups of last resort to fight against the 
Syrians, the Iranians, the Russians. We have seen this with al 
Qaeda already, rebranding itself in a way, as I mentioned 
earlier, to serve in that function, to be a very local shock 
troop to continue to defend territory and populations.
    The second thing is I think we have to recognize that the 
question of regime change in Syria has a real impact on 
counter-terrorism. Assad is a driver for radicalization. We 
talk a lot about, for example, Guantanamo, or words in 
campaigns serving as drivers. There is no more important driver 
for radicalization in the Middle East or the complications that 
Dan was mentioning earlier in terms of Sunni Arab states being 
willing to support extremist groups than Assad being in power. 
So we cannot divorce those two issues, and I think there has 
been a sense that the U.S. has actually given up on that idea, 
despite what our policy has been in rhetoric, that we really 
have not done much to do that and, in fact, have restricted the 
hands of our allies on the ground to effectuate that change.
    I think, finally, what it does is it disempowers the United 
States to shape the environment.
    The other troubling news, if the news is correct, we heard 
today, the Russians and the Turks are negotiating with the 
rebels absent any U.S. aide and absent any U.S. input. That is 
exactly what we do not want. We do not want the U.S. denuded of 
its power, its ability to shape the environment. Frankly, then 
our partners on the ground who have sacrificed and fought on 
our behalf who are with us, take real lessons as to who they 
can rely on as an ally. We want our allies on the ground to 
know they can rely on us. We want our enemies to fear us. And I 
am afraid what is happening in Syria is going in all the wrong 
directions.
    Ambassador Benjamin. I agree with Juan's assessment, and I 
do think that this will have a powerful impact on the 
attractiveness of any Sunni groups that are fighting in that 
region.
    But to take it one step further, I just want to underscore 
how the sectarian divide in the region--sectarian on the one 
hand and great power rivalry or regional power rivalry between 
Iran and Saudi Arabia and the Gulf Arabs more broadly on the 
other hand. It is the defining feature of the region now, and 
it will continue to feed the flames of extremism for a long 
time to come. I do not believe that the West has had a serious 
conversation about whether or not there is an off-ramp. I do 
not think we have had a serious conversation with any of these 
partners. I think it is taking the United States in directions 
that we should be very, very wary about--for example, our role 
in Yemen right now.
    This is, again, one of those big historical forces that we 
need to think very hard about how we grapple with it.
    Senator Shaheen. I could not agree more. Let me just say 
that one of the reasons that Assad has been able to be 
successful is because of the atrocities that he and the 
Russians and the Iranians have committed against the Syrian 
people, and that the West has been far too quiet about those 
atrocities. We should have acted before now. It is heart-
breaking to see what has happened in Syria.
    Thank you, Mr. Chairman.
    The Chairman. I could not agree more.
    Thank you both. We were talking earlier about what great 
witnesses you all are. We usually like to have controversial 
hearings, but you all agree so much that it has been difficult. 
But it is something that I think our country agrees, generally 
speaking, about, and that is countering terror, and we thank 
you both for your expertise and the experiences you have had 
and the knowledge you have shared with us today.
    We are going to leave the record open, if we could, until 
the close of business Monday. You all have done this before. 
People will send in written questions, and if you could respond 
fairly quickly, knowing you have other jobs to do, we would 
appreciate it.
    But you all have been great witnesses. We thank you both 
for your service to our country.
    And with that, the meeting is adjourned.

    [Whereupon, at 12:30 p.m., the hearing was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
